Report No. D-2008-047          February 5, 2008




  Contingency Planning for DoD Mission-Critical
             Information Systems
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASD(NII)/CIO          Assistant Secretary of Defense for Networks and Information
                         Integration/Chief Information Officer
CIO                   Chief Information Officer
COOP                  Continuity of Operations Plan
DITPR                 DoD Information Technology Portfolio Repository
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
FISMA                 Federal Information Security Management Act
IG                    Inspector General
MAC                   Mission Assurance Category
ODO                   Other Defense Organizations
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704


                                                                                    February 5, 2008

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Report on Contingency Planning for DoD Mission-Critical Information Systems
         (Report No. D-2008-047)

        We are providing this report for review and comment. The U.S. Strategic Command
and the Business Transformation Agency did not respond to the draft report. When preparing
the final report, we considered management comments from the Assistant Secretary of
Defense for Networks and Information Integration; the Departments of the Army, Navy, and
Air Force; the U.S. Transportation Command; the Defense Contract Management Agency; the
Defense Information Systems Agency; the Defense Logistics Agency; the Defense Threat
Reduction Agency; the Missile Defense Agency; and TRICARE Management Activity.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Defense Information Systems Agency comments were responsive with the exception of
Recommendation 2.e. We request that the Department of the Air Force, U.S. Strategic
Command, U.S. Transportation Command, Business Transformation Agency, Defense
Logistics Agency, Missile Defense Agency, and TRICARE Management Activity provide
comments on the final report for Recommendations 2.a. through 2.j. See the Management
Comments Required table at the end of the finding section for the specific comments required.

         We also request that comments be provided on the final report by the Assistant
Secretary of Defense for Networks and Information Integration for Recommendations l.b.,
l.d., 2.a., 2.b., 2.d., 2.e., 2.f., 2.g., 2.h., and 2.i.; the Army for Recommendations 2.c., 2.g.,
2.h., and 2.i.; the Navy for Recommendations 2.a., 2.b., 2.c., 2.d., 2.e. 2.g., 2.h., 2.i., and 2.j.;
the Defense Contract Management Agency for Recommendations 2.b., 2.c., 2.d., 2.e., 2.f.,
2.g., and 2.h.; the Defense Information Systems Agency for Recommendation 2.e.; and the
Defense Threat Reduction Agency for Recommendations 2.a., 2.b., 2.c., 2.d., 2.e., 2.f., 2.g.,
and 2.j. We request that management provide comments by March 5, 2008.

        If possible, please send management comments in electronic format (Adobe Acrobat
file only) to AudROS@dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in place of
the actual signature. If you arrange to send classified comments electronically, they must be
sent over the SECRET Internet Protocol Router Network (SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202) or Ms. Karen 1. Goff at (703)
604-9005 (DSN 664-9005). See Appendix D for the report distribution. The team members
are listed inside the back cover.

                                       By direction of the Deputy Inspector General for Auditing:
                                                                             :0;
                                   ~~~,
                                     obert F. Prinzbach II
                                    Acting Assistant Inspector General
                                    Readiness and Operations Support
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
   AND LOGISTICS
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
   INTEGRATION /CHIEF INFORMATION OFFICER
COMMANDER, U.S. STRATEGIC COMMAND
COMMANDER, U.S. TRANSPORTATION COMMAND
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
ASSISTANT SECRETARY (WARFIGHTING INTEGRATION) AND CHIEF
      INFORMATION OFFICER, DEPARTMENT OF THE AIR FORCE
DIRECTOR, BUSINESS TRANSFORMATION AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENY
DIRECTOR, DEFENSE THREAT REDUCTION AGENCY
DIRECTOR, MISSILE DEFENSE AGENCY
DIRECTOR, TRICARE MANAGEMENT ACTIVITY
CHIEF INFORMATION OFFICER, DEPARTMENT OF THE ARMY
CHIEF INFORMATION OFFICER, DEPARTMENT OF THE NAVY
   DEPUTY CHIEF INFORMATION OFFICER, U.S. MARINE CORPS
CHIEF INFORMATION OFFICER, U.S. STRATEGIC COMMAND
CHIEF INFORMATION OFFICER, U.S. TRANSPORTATION COMMAND
CHIEF INFORMATION OFFICER, DEFENSE CONTRACT MANAGEMENT AGENCY
CHIEF INFORMATION OFFICER, DEFENSE INFORMATION SYSTEMS AGENCY
CHIEF INFORMATION OFFICER, DEFENSE LOGISTICS AGENY
CHIEF INFORMATION OFFICER, DEFENSE THREAT REDUCTION AGENCY
CHIEF INFORMATION OFFICER, MISSILE DEFENSE AGENCY
CHIEF INFORMATION OFFICER, TRICARE MANAGEMENT ACTIVITY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                Department of Defense Office of Inspector General
Report No. D-2008-047                                                    February 5, 2008
   (Project No. D2007-D000LB-0080.000)

                Contingency Planning for DoD Mission-Critical
                            Information Systems

                                  Executive Summary
Who Should Read This Report and Why? DoD Component Chief Information Officers
and system owners conducting contingency planning for DoD information systems—in
particular, DoD officials responsible for developing, testing, and approving system
contingency plans—should read this report to properly plan and test their information
systems before a contingent event. Also, DoD officials responsible for reporting
contingency information to the Office of Management and Budget and Congress should
read this report.

Background. Section 301, Public Law 107-347, Title III, “Federal Information Security
Management Act of 2002,” December 17, 2002, of the E-Government Act of 2002 requires
each Federal agency to develop, document, and implement an agency-wide information
security program. The Federal Information Security Management Act requires that
Federal agency information security programs provide, among other things, plans and
procedures for the continuity of operations for agency information systems to continue
operations during a disruptive or catastrophic event. This is called contingency planning.
DoD uses the DoD Information Technology Portfolio Repository (DITPR) as its primary
information source for reporting on the security status of its DoD information systems for
the Federal Information Security Management Act.

DITPR is the DoD authoritative repository of unclassified information for DoD
information systems used to meet a variety of internal and external reporting requirements.
Chief Information Officers of DoD Components are required to report in DITPR their
inventory of information systems and must annually certify, in writing, that the
Component’s information in DITPR is complete and accurate. The system information in
DITPR includes information on contingency planning, such as whether system owners
developed and tested system contingency plans.

Contingency planning is the interim measure used to recover information technology
services following an emergency or system disruption. Contingency planning is especially
important for mission-critical systems. The loss of operations of mission-critical systems
would cause the stoppage of warfighter operations. The Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer is required to
develop and oversee contingency policies and planning for the stabilization and
reconstruction of DoD operations.

On January 24, 2007, the date of the audit announcement, DoD reported in DITPR
436 mission-critical information technology systems requiring information assurance
certification and accreditation. From the 436 systems, we statistically selected an audit
sample of 240 systems for data analysis. We projected our results to all 436 DoD
mission-critical information systems reported in DITPR as of January 24, 2007. See
Appendix B for a list of the 240 mission-critical information systems in our sample.

Results. The information in DITPR on contingency planning is not reliable on the basis of
sample results. We projected that, of 436 mission-critical information systems requiring
information assurance certification and accreditation, 264 systems (61 percent) lacked a
contingency plan or their owners could not provide evidence of a plan, 358 systems
(82 percent) had contingency plans that had not been tested or for which their owners
could not provide evidence of testing, 410 systems (94 percent) had incorrect testing
information reported in DITPR, and 37 systems (8 percent) had incorrect contingency plan
information reported in DITPR. As a result, DoD mission-critical systems may not be able
to sustain warfighter operations during a disruptive or catastrophic event. Further, DoD
provided erroneous information to Congress and the Office of Management and Budget on
whether DoD had contingency planning procedures in place and periodically tested the
procedures necessary to recover the systems from an unforeseen, and possibly devastating,
event. See the Finding section of the report for the detailed recommendations.

ASD(NII)/CIO did not implement management controls by establishing a comprehensive
and overarching contingency planning policy. Further, DoD Component CIOs did not
implement management controls to verify that system owners developed and tested system
contingency plans as required or to support the assertions in their CIO Certification
Memorandums about the completeness and accuracy of their information in DITPR.

Management Comments. The U.S. Strategic Command and the Business Transformation
Agency did not respond to the draft report, issued on October 2, 2007. With the exception
of Recommendations 1.c., 2.a., and 2.d. the Assistant Secretary of Defense for Networks
and Information Integration concurred with the recommendations. The Departments of the
Army and Navy concurred and the Defense Contract Management Agency partially
concurred with the recommendations. Although the Defense Information Systems Agency
comments did not state concurrence, the comments indicated concurrence. The Defense
Threat Reduction Agency nonconcurred with Recommendation 2.c. and partially
concurred with some of the recommendations.

The Air Force and the U.S. Transportation Command commented on the finding of the
draft report; however, the comments did not indicate concurrence, proposed actions, or
completion dates to the recommendations. The Defense Logistics Agency, Missile
Defense Agency, and TRICARE Management Activity concurred with the
recommendations; however, did not indicate proposed actions or completion dates. The
U.S. Marine Corps provided unsolicited comments to the finding and Recommendation 2.
and the Defense Threat Reduction Agency provided unsolicited comments to
Recommendation 1.

Management Comments Required. We request that the U.S. Strategic Command and
the Business Transformation Agency provide comments to the final report on
Recommenda-tions 2.a. through 2.j. Further, we request that the Department of the
Air Force, U.S. Transportation Command, Defense Logistics Agency, Missile Defense
Agency, and TRICARE Management Activity provide comments on the final report
regarding proposed actions and their completion dates for Recommendations 2.a.
through 2.j.

We also request that comments on the final report be provided by the:

       •   Assistant Secretary of Defense for Networks and Information Integration—
           Recommendations 1.b., 1.d., 2.a., 2.b., 2.d., 2.e., 2.f., 2.g., 2.h., and 2.i.;

       •   Army—Recommendations 2.c., 2.g., 2.h., and 2.i.;

       •   Navy—Recommendations 2.a., 2.b., 2.c., 2.d., 2.e. 2.g., 2.h., 2.i., and 2.j.;

                                              ii
       •   Defense Contract Management Agency—Recommendations 2.b., 2.c., 2.d.,
           2.e., 2.f., 2.g., and 2.h.;

       •   Defense Information Systems Agency—Recommendation 2.e.; and

       •   Defense Threat Reduction Agency—Recommendations 2.a., 2.b., 2.c., 2.d.,
           2.e., 2.f., 2.g., and 2.j.

We request that management provide comments by March 5, 2008. See the Finding
section of the report and Appendix C for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                          iii
Table of Contents

Executive Summary                                                                i

Background                                                                      1

Objectives                                                                      2

Review of Internal Controls                                                     2

Finding
     Contingency Planning for DoD Mission-Critical Information Systems          3

Appendixes
     A. Scope and Methodology                                                  37
         Prior Coverage                                                        40
     B. DoD Mission-Critical Systems Sampled                                   41
     C. Management Comments on the Finding, Unsolicited Comments on the
          Finding and Recommendations, and Audit Response                      52
     D. Report Distribution                                                    55

Management Comments
     Assistant Secretary of Defense for Networks and Information Integration    59
     Department of the Army                                                     68
     Department of the Navy                                                     77
     Department of the Air Force                                                80
     U.S. Transportation Command                                                81
     Defense Contract Management Agency                                         83
     Defense Information Systems Agency                                         87
     Defense Logistics Agency                                                   91
     Defense Threat Reduction Agency                                            92
     Missile Defense Agency                                                     98
     TRICARE Management Activity                                                99
     U.S. Marine Corps                                                         102
Background
           Section 301, Public Law 107-347, Title III, “Federal Information Security
           Management Act of 2002,” December 17, 2002, of the E-Government Act
           of 2002 requires that Federal agencies develop, document, and implement an
           agency-wide information security program. The Federal Information Security
           Management Act (FISMA) requires that Federal agency information security
           programs provide, among other things, plans and procedures for the continuity of
           operations for agency information systems. FISMA also requires that each
           Federal agency report annually to the Office of Management and Budget and
           Congress on the adequacy and effectiveness of its information security policies,
           procedures, and practices, which include contingency planning. DoD uses the
           DoD Information Technology Portfolio Repository (DITPR) as its primary source
           of information for FISMA reporting.

           DoD Information Technology Portfolio Repository. DoD Chief Information
           Officer (CIO) Memorandum, “Department of Defense (DoD) Information
           Technology (IT) Portfolio Repository (DITPR) and DoD SIPRNet IT Registry
           Annual Guidance for 2006,” May 17, 2006 (FY 2006 DITPR Guidance), states
           that DITPR is the sole DoD authoritative repository of unclassified information
           for DoD information systems. DoD uses DITPR to meet a variety of internal and
           external reporting requirements, including FISMA reporting. The DoD
           Component CIOs are required to report in DITPR their inventory of information
           systems and must annually certify, in writing, that the Component’s information
           in DITPR is complete and accurate. The system information in DITPR includes
           contingency planning information—specifically, whether system owners
           developed and tested system contingency plans.

           Information is entered into DITPR by the Components using either batch uploads
           from their internal information technology systems or by working online in
           DITPR directly. Of the organizations reviewed, the Army, Navy, Air Force,
           Marine Corps, and TRICARE Management Activity update their DITPR
           information by batch upload. The remainder of the Components reviewed enter
           and edit their DITPR information online.

           Contingency Planning. Contingency planning is the interim measure used to
           recover information technology services following an emergency or system
           disruption. Contingency planning is especially important for mission-critical
           systems. The loss of mission-critical system operations would cause the stoppage
           or direct mission support of warfighter operations. DoD Directive 5144.1,
           “Assistant Secretary of Defense for Networks and Information Integration/DoD
           Chief Information Officer (ASD(NII)/CIO),” May 2, 2005, requires that
           ASD(NII)/CIO develop and oversee contingency policies and planning for the
           stabilization and reconstruction of DoD operations. DoD Instruction 5200.40,
           “DoD Information Technology Certification and Accreditation Process
           (DITSCAP),” December 30, 1997,1 requires that system owners prepare

1
    Subsequent to the audit, DoD Instruction 5200.40 was cancelled and replaced with DoD
    Instruction 8510.01, “DoD Information Assurance Certification and Accreditation Process (DIACAP),”
    November 28, 2007.



                                                    1
          contingency plans as part of the information assurance certification and
          accreditation process of a system.

          We queried DITPR on January 24, 2007, the date of our audit announcement, to
          identify the universe of DoD mission-critical information technology systems
          requiring information assurance certification and accreditation. The certification
          and accreditation process encompasses the actions taken by owners of a system to
          protect the system’s information. Owners accomplish this by implementing
          information assurance controls designed to protect the availability, integrity,
          authentication, confidentiality, and non-repudiation of a system’s information.

          Our query resulted in a universe of 436 mission-critical information systems
          requiring information assurance certification and accreditation. The 436 systems
          included 110 Army, 97 Navy, 85 Air Force, 50 Marine Corps, and 94 Other
          Defense Organizations (ODO).2 From a population of 436 systems, we
          statistically selected an audit sample of 240 systems. The audit sample consisted
          of 60 Army, 54 Navy, 50 Air Force, 26 Marine Corps and 50 ODO systems. We
          projected our results to the universe of 436 DoD mission-critical information
          systems reported in DITPR as of January 24, 2007. See Appendix B for the
          240 systems sampled.


Objectives
          Our overall audit objective was to assess the reliability of contingency planning
          data reported in DITPR for selected information systems. Specifically, we
          assessed system owners’ compliance with reporting requirements for contingency
          planning information. See Appendix A for a discussion of the scope and
          methodology and prior coverage related to the objectives.


Review of Internal Controls
          We identified internal control weaknesses for ASD(NII)/CIO as defined by DoD
          Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
          January 4, 2006. ASD(NII)/CIO did not establish a comprehensive and
          overarching contingency planning policy. Further, DoD Component CIOs did not
          implement management controls to verify that system owners developed and
          tested system contingency plans as required or to support the assertions in their
          CIO Certification Memorandums about the completeness and accuracy of their
          information in DITPR. Implementing Recommendations 1. and 2. will improve
          ASD(NII)/CIO and Component CIO reporting of contingency planning
          information in DITPR. We will provide a copy of the report to the senior official
          responsible for internal controls at ASD(NII)CIO in February 2008.



2
    An ODO is either a Defense agency or a combatant command.



                                                   2
                    Contingency Planning for DoD
                    Mission-Critical Information Systems
                    The information in DITPR on contingency planning is not reliable on the
                    basis of sample results. We projected that, of 436 mission-critical
                    information systems requiring information assurance certification and
                    accreditation:

                             •   264 systems (61 percent) lacked a contingency plan or their
                                 owners could not provide evidence of a plan;

                             •   358 systems3 (82 percent) had contingency plans that had not
                                 been tested or for which their owners could not provide
                                 evidence of testing;

                             •   410 systems (94 percent) had incorrect testing information
                                 reported in DITPR; and

                             •   37 systems (8 percent) had incorrect contingency plan
                                 information reported in DITPR.

                    These security weaknesses occurred because ASD(NII)/CIO did not
                    establish a comprehensive contingency planning policy. Additionally, the
                    Component CIOs did not implement management controls to verify that
                    system owners developed or tested system contingency plans. The
                    Component CIOs also did not implement Component-level automated
                    controls to ensure complete and accurate reporting in DITPR. As a result,
                    DoD mission-critical systems may not be able to sustain warfighter
                    operations during a disruptive or catastrophic event. Further, DoD
                    provided erroneous information to Congress and the Office of
                    Management and Budget on whether DoD had procedures in place and
                    periodically tested the procedures necessary to recover the systems from
                    an unforeseen, and possibly devastating, event.


Preparing Contingency Plans
           DoD Instruction 5200.40 requires that system owners prepare contingency plans
           as part of the information assurance certification and accreditation process of a
           system. The certification and accreditation process encompasses the actions
           taken by owners of a system to protect the system’s information. Owners
           accomplish this by implementing information assurance controls designed to
           protect the availability, integrity, authentication, confidentiality, and
           nonrepudiation of a system’s information. On January 24, 2007, the date of the
           audit announcement, DoD reported in DITPR 436 mission-critical information
3
    The figure 358 was a result of sampling and computed independently. The figure does not reflect a total
    of the 97 Army, 86 Navy, 85 Air Force, 50 Marine Corps, and 39 ODO systems identified in this report
    whose system owners did not test or provide evidence of testing their system’s contingency plan.



                                                      3
          technology systems requiring information assurance certification and
          accreditation. Out of the 436 systems, we statistically selected 240 systems for
          data analysis. On the basis of sample results, we projected that owners of 2644 of
          436 mission-critical DoD systems did not develop or could not provide evidence
          of the systems contingency plan.

          We requested that DoD Components provide us with the approved, signed copy
          of the system’s contingency plan for the 240 systems sampled. When the
          Component did not provide a plan for the sampled systems, we stated that the
          system owner did not provide evidence of having developed a plan for that
          system. When system owners provided documentation, we reviewed the
          documentation to determine whether it met contingency plan requirements. See
          Appendix A for more on our methodology.

          Army. On the basis of sample results, we projected that owners for 57 of the
          Army’s 110 mission-critical systems (52 percent) did not develop or could not
          provide evidence of a contingency plan. Army system owners provided various
          reasons for not developing or providing system plans. For example, two system
          owners stated that because the system was a mission support system it did not
          require a plan. However, according to DITSCAP, system owners are required to
          develop a system contingency plan regardless of the system’s mission criticality.
          Another system owner who could not provide a copy of the system’s plan planned
          to delete the system from DITPR; however, the owner reported in DITPR that a
          plan had been developed for the system. Another system owner planned to
          transfer the system to another DoD Component and delete the system from
          DITPR. The owner, however, could not provide a copy of the system’s plan and,
          at the time of our review, continued to report the system as owned by the Army.

          Army system owners also provided documents that did not meet contingency plan
          requirements. For example, system owners provided continuity of operations
          plans (COOPs) that made no mention of the system under review. A COOP
          restores mission and organizational operations, which may not always include the
          restoration of an information system. One system owner provided a COOP
          stating that its purpose was to restore command operations. The COOP, however,
          did not include contingency planning for the information system sampled.
          Three system owners provided documents stating that unit commanders were
          responsible for developing their systems’ contingency plans. However, Army
          officials could not provide the contingency plans for the three systems sampled.
          Further, the documents did not provide unit commanders with instructions for
          developing the system plans. In addition, two system owners provided
          contingency plans prepared specifically for the year 2000 conversion that did not
          identify procedures to recover the system from other disruptive events. The
          year 2000 conversion plans were more than 7 years old and did not state that the
          procedures identified in the plan were valid for the system’s current environment.

          Navy. On the basis of sample results, we projected that owners of 68 of the
          Navy’s 97 mission-critical information systems (70 percent) did not develop or
          could not provide evidence of a contingency plan. System owners provided
          various reasons for not providing system plans. For example, one system owner
4
    The 264 systems include 57 Army, 68 Navy, 68 Air Force, 50 Marine Corps, and 21 ODO systems.



                                                   4
said the system was terminated. Another system owner who could not provide a
contingency plan removed the system from DITPR because it was a network, not
an information technology system. However, DITSCAP requires that system
owners certify and accredit networks, as well as information systems. Therefore,
the system owner should have prepared a contingency plan for the network.

Navy system owners provided documents that did not meet contingency plan
requirements. For example, system owners provided technical manuals and
headquarters COOPs. The documents, however, did not include contingency
plans specific to their information system to recover from a disruptive event or
emergency. System owners also provided one-page documents stating that the
contingency plan was the responsibility of the information assurance manager.
Navy officials, however, could not provide contingency plans for those systems.
Further, the one-page documents did not provide guidance to the information
assurance managers on how to recover the system from a disruptive event.

Air Force. On the basis of sample results, we projected that owners of 68 of the
Air Force’s 85 mission-critical information systems (80 percent) did not develop
or could not provide evidence of a contingency plan. System owners provided
documents that did not meet contingency plan requirements. One system owner
provided task cards rather than a contingency plan. Task cards provide personnel
with procedures for the orderly evacuation of personnel in case of fire, natural
disaster, bomb threat, or other emergency. The tasks cards did not discuss
procedures for restoring an information system’s operations after a disruptive
event. Another system owner provided a risk management plan that did not
identify a contingency plan for the information system. Lastly, one system owner
provided the system’s COOP, which stated that users should use it in conjunction
with the system’s contingency plan. The system owner, however, could not
provide the contingency plan.

Marine Corps. On the basis of sample results, we projected that system owners
for all of the Marine Corps’ 50 mission-critical information systems (100 percent)
did not develop or could not provide evidence of a contingency plan. System
owners reported in DITPR for the 26 systems sampled that they had developed a
contingency plan for the system. However, Marine Corps system owners
provided one document for all 26 systems sampled—an appendix from the
Marine Corps Logistics Command Security System Authorization Agreement—as
evidence that they had prepared contingency plans for the 26 systems.
Marine Corps system owners also provided a memorandum stating that the
appendix covered contingency planning procedures for the 26 systems under
review. The five-page appendix, however, did not mention the 26 systems or
provide contingency planning procedures for the systems.

Other DoD Organizations. Based on our sample results, we projected that
owners of 21 of 94 ODO mission-critical information systems (22 percent) did
not develop or could not provide evidence of a contingency plan. System owners
stated that their systems did not have plans because the systems were,
respectively, a pilot project, a network appliance, or a predeployment system.
However, none of the reasons given by system owners precluded them from
developing contingency plans. The owner of each system reported in DITPR that
it required certification and accreditation; therefore, each system required a


                                    5
           contingency plan. Other system owners stated that the contractors operating their
           systems could not release the contingency plans to the Government because the
           plans contained proprietary information. The Component CIO should require that
           the contractors remove the proprietary information from the contingency plan and
           immediately provide the Government with a copy.

           On the basis of our review of the contingency plans that did meet requirements,
           we found no consistency among the contingency plans prepared by system
           owners within DoD. Each plan contained varying degrees of information. For
           example, some plans contained system descriptions, system configurations
           schematics, and disaster recovery scenarios, while other plans did not.
           Additionally, some plans detailed the frequency of data backups, measures to
           protect critical software, and procedures for startup at alternate sites, while most
           plans did not.


Contingency Plan Testing
           Despite evidence presented in the previous section of this report that system
           owners could not demonstrate they had developed a contingency plan for their
           system, owners still reported in DITPR on January 24, 2007, that, for 235 of the
           240 systems sampled, they had tested the system’s plan. System owners for the
           remaining five systems left blank the data field in DITPR that asks about
           contingency plan testing. We requested that system owners provide testing
           documents to support the date of the contingency plan test that owners reported in
           DITPR as of January 24, 2007.

           On the basis of sample results, we projected that owners of 358 of 436 DoD
           mission-critical systems did not test or could not provide evidence that they tested
           system contingency plans. DoD Instruction 8500.2, “Information Assurance (IA)
           Implementation,” February 6, 2003, requires that system owners test contingency
           plans based on the system’s MAC (Mission Assurance Category). System owners
           are required to designate their system as a MAC I, II, or III. The MAC designates
           the importance of the information in relation to the achievement of DoD goals and
           objectives, particularly the warfighter’s combat mission.

           DoD Instruction 8500.2 requires that system owners test MAC I systems twice a
           year and MAC II and III systems once yearly. DoD CIO Memorandum,
           “Department of Defense (DoD) Federal Information Security Management Act
           (FISMA) Guidance for Fiscal Year 2006 (FY 06),” April 4, 2006 (FY 2006
           FISMA Guidance), requires that system owners test the procedures in their
           contingency plans using tabletop5 or functional6 exercises and document the
           testing results. We based our review on the requirements in the FY 2006 FISMA
           Guidance because its deadline for updating DITPR, December 1, 2006, coincided

5
    Participants of a tabletop exercise walk through the procedures without any actual recovery operations
    occurring. Tabletop exercises are the most basic and least costly of the two types of exercises.
6
    Functional exercises include simulations and war gaming. Often, scripts are written for role players
    pretending to be external organization contacts. A functional exercise can include actual relocation to the
    alternate site.



                                                        6
most closely with the date on which we announced our audit and obtained our
audit universe, January 24, 2007. Also, the DoD CIO did not issue the follow-on
memorandum, “Department of Defense (DoD) Federal Information Security
Management Act (FISMA) Guidance for Fiscal Year 2007 (FY07),” May 21,
2007 (FY 2007 FISMA Guidance), until 4 months after we announced our audit
and obtained the audit universe. Further, as part of the FY 2006 FISMA
Guidance, the DoD CIO included supplemental information on the types of
contingency plan exercises system owners should conduct and required owners to
document the exercises. However, the DoD CIO omitted that supplemental
information from the FY 2007 FISMA Guidance.

Army. On the basis of sample results, we projected that owners of 97 of the
Army’s 110 mission-critical information systems (88 percent) did not test or
could not provide evidence that they tested a contingency plan. As evidence of
testing, owners of systems in our sample provided memorandums for record,
execution papers, and e-mail responses dated after our request for information.
The FY 2006 FISMA Guidance requires that system owners maintain documents
on contingency plan testing. We did not consider responses or documents
prepared in response to our data request as evidence of contingency plan testing.
Some system owners provided actual testing documents, but only two of the
documents confirmed that testing was done on the date reported in DITPR. Other
system owners provided a contingency plan that was dated after the testing date
reported in DITPR.

Navy. On the basis of sample results, we projected that owners of 86 of the
Navy’s 97 mission-critical information systems (89 percent) did not test or could
not provide evidence that they tested their systems’ contingency plans. Owners
of the Navy’s systems we sampled entered a date in DITPR indicating when they
last tested the contingency plan but did not always provide testing documents
supporting that date. For example, some system owners did not provide any
documentation, while others provided documentation that did not match the test
date in DITPR. Specifically, system owners provided memorandums for record,
prepared after the date of our data request, certifying that they tested the system
contingency plan on the date reported in DITPR. We did not consider responses
or documents prepared in response to our data request as evidence of contingency
plan testing. We concluded that the system owners did not document the testing
of the contingency plan as required by the FY 2006 FISMA Guidance.

In addition, Navy system owners provided COOP checklists identifying
procedures that owners should include in their COOP plan. The COOP checklists
were not specific to the systems under review. System owners also provided
exercise and drill schedules and stated that they interviewed their information
assurance officer to verify that exercises were completed. The COOP checklists
and exercise and drill schedules did not document the actual completion of a
contingency plan test. The COOP checklist also did not support that system
owners conducted a contingency plan test on the date they reported in DITPR.

Further, few system owners documented testing results for their systems’
contingency plans as required by the FY 2006 FISMA Guidance. Among system
owners who did document testing results, most provided documents with dates



                                     7
that did not match those reported in DITPR. In fact, some testing documents bore
dates preceding the date of the contingency plan provided.

Air Force. On the basis of sample results, we projected that owners of all of the
Air Force’s 85 mission-critical information systems (100 percent) did not test or
could not provide evidence of testing the contingency plan as required by DoD
Instruction 8500.2 and the FY 2006 FISMA Guidance. We gave Air Force
officials two opportunities to provide contingency plan testing documents for the
systems in our sample. We concluded that system owners did not maintain
testing documentation as required or perform testing of their systems’
contingency plans.

Marine Corps. On the basis of sample results, we projected that owners of all of
the Marine Corps’ 50 mission-critical information systems (100 percent) did not
test or could not provide evidence that they tested the systems’ contingency plans.
Responding to the question in DITPR about when they last tested their systems’
contingency plans, owners of all but one sampled system reported the same date.
These same owners, however, provided only one document—a COOP checklist
for the Marine Corps Logistics Command—as evidence that they tested the
contingency plans for the 26 systems sampled. The checklist provided steps for
system owners to follow when developing a COOP plan but did not document the
actual completion of the contingency plan test for any of the Marine Corps
systems in our sample. Further, Marine Corps officials dated the COOP checklist
after our documentation request. Therefore, the COOP checklist did not support
the dates reported in DITPR for the 26 systems sampled.

Other DoD Organizations. On the basis of our sample results, we projected that
owners of 39 of 94 mission-critical ODO information systems (42 percent) did
not test or could not provide evidence that they tested their systems’ contingency
plans. For example, system owners provided documents indicating dates for
planned testing but did not actually provide testing results. Other system owners
provided test results for unidentified systems. Still other owners provided the
approval memorandums granting their systems authority to operate. We did not
consider these documents adequate support for testing the contingency plan.
Finally, some owners responded that their systems did not have contingency
plans.

In light of the significant deficiencies we identified in the testing of system
contingency plans, the DoD CIO should issue supplemental guidance reinstating
the contingency plan testing requirements identified in the FY 2006 FISMA
Guidance. The DoD CIO removed clarifying guidance from the FY 2007 FISMA
Guidance on the types of tests that system owners should conduct. The DoD CIO
also omitted the requirement for system owners to document results of
contingency plan tests. Further, the Component CIO should implement
management controls to verify that system owners conduct recurring tests of
system contingency plans.




                                     8
Reporting on Contingency Planning in DITPR
           According to the FY 2006 DITPR Guidance, DoD Components own and maintain
           the information reported in DITPR and are responsible for its completeness and
           accuracy. Based on sample results, we projected that owners of 410 of 436 DoD
           mission-critical information systems (94 percent) did not correctly report in
           DITPR whether they tested their systems’ plans. Additionally, we projected that
           owners of 37 of the 436 information systems (8 percent) did not correctly report
           in DITPR whether they developed contingency plans for their systems.

           Development of Contingency Plans. For all of the 240 mission-critical systems
           in our sample, system owners reported in DITPR that their systems required
           certification and accreditation. DITSCAP requires that system owners develop a
           system contingency plan as part of the certification and accreditation process.

           When entering information in DITPR, system owners are required to enter “yes”
           or “no” in the data field that indicates whether they developed a contingency plan
           for their system. For the 240 certified and accredited mission-critical systems
           sampled, system owners should have developed a contingency plan for their
           system and responded “yes.” We identified, however, that owners did not always
           respond “yes” in DITPR. On the basis of sample results, we projected that
           owners of 37 of 436 mission-critical systems (8 percent) belonging to the Army,
           Navy, Business Transformation Agency, Defense Information Systems Agency,
           and Defense Threat Reduction Agency reported “no,” that they did not develop a
           plan, or left the data field blank. Navy system owners also answered “n/a.”

           Testing of Contingency Plans. On the basis of sample results, we projected that
           owners of 410 of 436 DoD mission-critical information systems (94 percent)
           could not support the contingency plan test date they reported in DITPR for their
           system or did not report a test date in DITPR. When the system owners did
           provide testing documents, the majority of the documents bore dates that did not
           match the date the owner reported in DITPR. The FY 2006 FISMA Guidance
           required that DoD Components make their first update in DITPR for FY 2007 by
           December 1, 2006.7 The owners of several systems provided testing
           documentation dated after the date reported in DITPR but before December 1,
           2006. That documentation indicated that system owners did not properly update
           the test date in DITPR.

           DITPR information also indicates that some system owners had not tested their
           systems’ contingency plans for more than 5 years. Specifically, owners of Navy
           and Air Force systems reported in DITPR that they last tested the systems’
           contingency plans in 2002. A Defense Logistics Agency system owner last
           reported testing the system’s contingency plan in 2003.

           Other DITPR Data. During our review of contingency planning documents, we
           identified other DITPR reporting problems. Specifically, we found that system
           owners reported the same systems twice in DITPR, that the documentation

7
    The FY 2006 FISMA Guidance established December 1, 2006, as the deadline for entering first-quarter
    FY 2007 updates in DITPR; we obtained our sample universe from DITPR on January 24, 2007.



                                                     9
owners provided did not match reporting for other DITPR data elements, and that
system owners made unusual designations in DITPR.

        Duplicate Reporting. In three cases, system owners from different
Components reported the same system under different DITPR identification
numbers. For example, system owners from the Army and the Navy reported the
same system using DITPR identification numbers 3612 and 5021, respectively.
System owners from the Navy and the U.S. Transportation Command reported the
same system under DITPR identification numbers 4827 and 354, respectively.
Finally, owners from the Army and U.S. Transportation Command reported the
same system using DITPR identification numbers 3037 and 1352, respectively.

        Conflicting or Missing DITPR Data. We also found instances when the
documentation that system owners provided did not match other DITPR data
fields or was incomplete. For instance, the owners of Army systems designated
their systems as mission critical; however, the owner stated that the systems were
mission support systems. Other Army owners left the testing data field blank.

        Conflicts Between Data Entries and Documentation. Two Navy
system owners reported their systems as MAC I; however, the documentation
identified the system as MAC II. One of the two owners also reported in DITPR
that their system was mission critical whereas the documentation they provided
showed that the system was actually mission essential. Navy system owners also
reported future dates in DITPR when answering the question about when they last
tested the contingency plan. For example, we generated our audit sample on
January 24, 2007; the DITPR information collected on that date showed that
one Navy system owner reported having last tested the system’s contingency plan
in October 2007. Additionally, Navy system owners reported dates in DITPR to
indicate when they last tested their systems’ contingency plans, but also reported
that they did not develop contingency plans for their systems.

       During the review, Air Force officials did not provide any testing
documentation on systems in our sample. Therefore, we projected that no
Air Force system owners prepared or tested their systems’ contingency plans or
documented test results.

Unusual Designations. The FY 2006 FISMA Guidance states that system
owners’ designating their systems as mission critical and MAC III is unusual.
The Guidance recommends that system owners review the designation
combination closely before making such a designation in DITPR. The
designation is unusual because a system owner is protecting a mission-critical
system whose loss would stop warfighter operations with the minimum security
required for any information system. System owners should protect their system
at MAC III only when the consequences of the loss of its information can be
tolerated or overcome without jeopardizing mission effectiveness or operational
readiness. Owners of 17 Army, 5 Navy, 8 Air Force, 4 Marine Corps, and 5 ODO
mission-critical systems designated their systems as MAC III. We could not find
in the documentation any reasons given by owners for designating their systems
as mission critical and MAC III.




                                    10
Policy and Guidance
    DoD Contingency Planning Policy. ASD(NII)/CIO did not establish a
    comprehensive policy for contingency planning. DoD contingency planning
    policy is fragmented and does not provide system owners with comprehensive
    policy for preparing contingency plans. DITSCAP requires system owners to
    prepare contingency plans but does not tell them how. DoD Instruction 8500.2
    requires that system owners test certain aspects of the plan but does not identify
    the types of tests system owners must conduct or require that owners document
    results. Further, the DITPR Data Dictionary, which explains in detail what
    owners should report in each DITPR data field, is confusing. Specifically, the
    January 31, 2007, version of the DITPR Data Dictionary states that the
    “contingency test date” refers to the date a system owner last tested the system’s
    contingency plan or COOP. In other words, the DITPR Data Dictionary uses the
    terms “contingency plan” and “COOP” interchangeably. The terms, however,
    have different meanings.

    A contingency plan restores system operations, whereas a COOP restores mission
    and organizational operations. Because DITPR is the DoD repository for system
    information, we interpreted the DITPR Data Dictionary to require that
    Components enter the date the system’s contingency plan was last tested.
    Because DITPR and the Data Dictionary use the terms interchangeably, we
    believe confusion exists among system owners about the difference between a
    contingency plan and a COOP. We base our conclusion on the documents owners
    provided to demonstrate that they had developed a plan for their systems.
    Specifically, numerous system owners provided the headquarters COOP in
    response to our data request rather than the system’s contingency plan.

    Guidance for Components on Contingency Planning. The Army, Navy,
    Air Force, U.S. Strategic Command, U.S. Transportation Command, Defense
    Contract Management Agency, Defense Threat Reduction Agency, Missile
    Defense Agency, and TRICARE Management Activity issued some form of
    guidance on contingency planning in the absence of an overarching DoD policy
    on contingency planning. The policy issued by the Army, Navy, Air Force, and
    the TRICARE Management Activity referred to the National Institute on
    Standards and Technology Special Publication 800-34, “Contingency Planning
    Guide for Information Technology Systems,” June 2002, and recommended its
    use when preparing system contingency plans. Special Publication 800-34
    identifies fundamental planning principles and practices to help personnel
    develop and maintain effective information technology contingency plans.

    Despite the fact that some DoD Components recommended use of Special
    Publication 800-34, ASD(NII)/CIO has not formally mandated its use or
    established a comprehensive DoD contingency planning policy in accordance
    with DoD Directive 5144.1. ASD(NII)/CIO should either require that DoD
    Components implement Special Publication 800-34 or issue a comprehensive
    policy for contingency planning for DoD information systems. ASD(NII)/CIO
    should also develop a training program for DoD Components on contingency
    planning. The training program would ensure that system owners consistently
    prepare and test contingency plans.


                                        11
DITPR Data Quality
    DoD Component CIOs did not implement Component-level automated controls to
    help ensure complete and accurate reporting in DITPR. The DoD Components
    own the information systems reported in DITPR and are responsible to update and
    maintain their information system data reported in DITPR. According to the
    FY 2006 DITPR Guidance, the Components are responsible for the accuracy and
    completeness of their system data in DITPR and must implement automated
    controls that help ensure that system owners report complete, accurate, and up-to-
    date information in DITPR. The FY 2006 DITPR Guidance also required that the
    Component CIO certify in writing that automated controls were in place to help
    ensure DITPR data quality.

    Military Departments. Army and Navy officials stated in their DITPR CIO
    Memorandums that they implemented automated controls. However, Army and
    Navy officials acknowledged that the automated controls were actually reports
    generated from their Service-level systems that officials manually reviewed to
    identify blank data fields. According to the officials, the manual reviews can
    determine only the completeness of their information, not its accuracy. Although
    manual reviews may be considered a control measure, manually reviewing a
    report to identify data anomalies is not an automated control. In September 2006,
    Air Force officials stated that they, too, implemented an automated tool; however,
    the tool was not in place at the time the Air Force CIO signed his DITPR CIO
    Certification Memorandum. Air Force officials also stated that the automated
    tool is now operational but that system owners are reluctant to use it.

    Other Defense Organizations. Component CIOs for 7 of the 10 ODOs we
    sampled indicated in their annual CIO DITPR Certification Memorandums that
    they implemented automated controls. We found, however, that only the CIO
    from the TRICARE Management Activity had implemented automated controls
    as the remaining six CIOs did not implement the controls as certified in their
    memorandum. For example, a Defense Contract Management Agency official
    stated that the agency maintained a spreadsheet to track accreditation dates.
    Tracking accreditation dates only identifies when a system owner must re-accredit
    a system to operate and is not an example of an automated tool that would
    improve the quality of DITPR information. In addition, a U.S. Strategic
    Command official stated that he uses the Outlook calendar as a reminder to
    generate a monthly FISMA report from DIPTR. The official stated that he
    manually reviews the monthly report from DITPR to identify any inconsistencies.

    ASD(NII)/CIO. ASD(NII)/CIO has taken steps to improve data quality of the
    information in DITPR. In August 2007, ASD(NII)/CIO officials responsible for
    managing DITPR included 16 built in checks, called data integrity rules,
    identifying when information in a data field is not logical. For example, one data
    integrity rule identifies when owners enter a future date in DITPR for when they
    last tested their contingency plan. Another rule identifies when owners enter a
    contingency plan test date but entered a “no” in the field asking whether they
    developed a plan for the system.




                                        12
          DITPR officials can also identify when owners leave certain data fields blank;
          however, officials stated that the challenge is to identify who is responsible for
          correcting the anomalies identified by these metrics. On September 7, 2007,
          ASD(NII)/CIO began requiring that Component CIOs complete a DoD
          Component Data Traceability Document, which describes the internal processes
          used by the Component to ensure that they inventoried all their information
          systems and that the data supplied in DITPR are accurate and taken from
          authoritative sources.8 The Components must also document whether they
          independently validated their internal processes, the frequency of independent
          validation, and the validation results and remedial actions taken. DITPR officials
          plan to phase in the DoD Component Data Traceability Document requirement
          over the next 2 years. The new document will replace the DITPR CIO
          Certification Memorandums as long as Components update the traceability
          document annually.

          Although DITPR provides automated controls to identify blank and illogical data,
          the DoD Components supply the information reported in DITPR and must
          provide accurate and complete information. To help improve DITPR data quality,
          ASD(NII)/CIO required in the FY 2006 DITPR Guidance that Component CIOs
          implement automated controls and certify that the system information reported to
          DoD in DITPR is complete and accurate. However, the DoD Components in our
          sample often did not implement such controls and continue to supply incorrect
          and inaccurate information in DITPR as identified in this audit report. Further,
          the FY 2006 DITPR Guidance did not provide DoD Components with a definition
          of an automated control or specify the types of automated controls that the
          Components should implement.

          In view of the contingency planning reporting problems identified in this report,
          the DITPR Component CIO Memorandums currently provide no assurance as to
          the completeness and accuracy of information in DITPR. The new DoD
          Component Data Traceability Document will require Component CIOs to record
          their DITPR information processes and may identify ways to improve the quality
          of data in DITPR. Until the DoD Component Data Traceability Document is
          fully implemented across DoD, Component CIOs should closely review their
          DITPR CIO Certification Memorandums to ensure that the information is
          accurate. The Component CIOs should closely review the basis of their
          assertions on the accuracy and completeness of their information in DITPR and
          interview information assurance professionals to validate such assertions. The
          Component CIOs should also sanction system owners that continue to report
          inaccurate and incomplete information in DITPR. Finally, ASD(NII)/CIO should
          include caveats in reports drawn from DITPR stating that the information is not
          accurate or complete and should not be relied on for management and budgetary
          decisions.




8
    The DoD CIO updated the FY 2006 DITPR Guidance by issuing “Department of Defense (DoD)
    Information Technology (IT) Portfolio Repository (DITPR) and DoD SECRET Internet Protocol Router
    Network (SIPRNET) IT Registry Guidance for 2007-2008,” September 6, 2007.



                                                  13
Management Controls
    We projected that owners of 264 out of 436 DoD mission-critical information
    systems (61 percent) did not develop or could not provide evidence of a
    contingency plan for their system. The contingency plans that system owners
    provided varied in content and in degree of completion: some were still in draft,
    and most were not approved. Additionally, we projected that owners of 358 out
    of 436 mission-critical information systems (82 percent) did not test or could not
    provide evidence of testing. Our sample results are evidence that the Component
    CIOs did not implement management controls to ensure that owners complied
    with contingency planning requirements. The Component CIOs should verify
    that system owners are developing viable contingency plans, that plans are
    approved, and that plans are tested under realistic and current conditions.

    In light of the significant security weaknesses identified in this audit report—that
    owners of a projected 61 percent of DoD mission-critical information systems did
    not develop or could not provide evidence of a system’s contingency plans and
    that 82 percent did not test plans as required—DoD Component CIOs should
    prepare Component-level Plans of Action and Milestones. The FY 2006 FISMA
    Guidance requires that Component CIOs and system owners develop, implement,
    and manage Plans of Action and Milestones for programs and systems they
    operate and control. A Plan of Action and Milestones is a management tool that
    documents system security weaknesses that owners must remediate and identifies
    the actions and milestones necessary for mitigating security weaknesses. According
    to the FY 2006 FISMA Guidance, a system owner should also prepare Plans of
    Action and Milestones when information technology security weaknesses are
    identified during a review. System owners should prepare a Plan of Action and
    Milestones to remediate the contingency planning weaknesses identified in
    Appendix B.


Conclusions
    DoD mission-critical systems may not be able to sustain warfighter operations
    during a disruptive or catastrophic event without the development and testing of
    system contingency plans. The permanent loss of a mission-critical system would
    cause the stoppage of warfighter operations. Until ASD(NII)/DoD CIO issues a
    comprehensive DoD contingency planning policy, ASD(NII)/CIO should
    mandate that the DoD Components follow Special Publication 800-34 when
    developing system contingency plans. The DoD Component CIOs should
    implement management controls to verify that system owners reporting in
    DITPR, particularly on mission-critical systems, are developing system
    contingency plans. Similarly, the Component CIOs should implement controls to
    ensure that system owners are conducting recurring tests of the systems plans.

    DoD provided erroneous information to Congress and the Office of Management
    and Budget on whether DoD had procedures in place and periodically tested the
    procedures necessary to recover the systems from an unforeseen event. DITPR is
    the only means for DoD to report the security status of its information technology


                                         14
    systems to the Office of Management and Budget and Congress and is being used
    to compile reports for FISMA, as well as for other congressional reporting
    requirements. The inaccurate and incomplete information in DITPR continues to
    diminish the usefulness of the database for management oversight by DoD, the
    Office of Management and Budget, and Congress. Unless DoD implements
    effective internal quality controls over Component-supplied information in
    DITPR, DoD reporting on the security status of its information systems continues
    to be flawed and should not be relied on.


Management Comments on the Finding, Unsolicited
 Comments on the Finding and Recommendations, and
 Audit Response
    The Air Force, U.S. Transportation Command, and the Defense Contract
    Management Agency provided comments on the finding section of the report.
    Although not required to comment, the Marine Corps also commented on the
    finding and the Defense Threat Reduction Agency commented on
    Recommendation 1. Summaries of management comments on the finding,
    unsolicited comments on the finding and recommendations, and our audit
    response are in Appendix C.


Recommendations, Management Comments, and
  Audit Response
    1. We recommend that the Assistant Secretary of Defense for Network and
    Information Integration/DoD Chief Information Officer:

           a. Require DoD Components to use the National Institute of
    Standards and Technology Special Publication 800-34, “Contingency
    Planning Guide for Information Technology Systems,” June 2002, when
    developing and testing DoD contingency plans, or issue a comprehensive DoD
    contingency planning policy.

            Management Comments. The Deputy Assistant Secretary of Defense for
    Information and Identity Assurance, responding for the DoD CIO, concurred in
    principle, stating that the DoD CIO will recommend that Special
    Publication 800-34 be used as a guide when preparing system contingency plans.

           Audit Response. The Deputy Assistant Secretary of Defense for
    Information and Identity Assurance comments were responsive, and no further
    comments are required.

             b. Inform the Office of Management and Budget and Congress that
    DoD does not have internal controls over the accuracy of data on the security
    of its information technology systems, and include a caveat to that effect in
    all reports based on data drawn from the DoD Information Technology


                                       15
Portfolio Repository until demonstrably effective internal controls have been
in place for at least 1 full year.

        Management Comments. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance, responding for the DoD CIO, concurred in
principle, stating that future reports generated using DIPTR as the principal
source will include a caveat indicating that some DITPR data should be used with
caution.

        Audit Response. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance comments were nonresponsive. The Deputy
Assistant Secretary of Defense for Information and Identity Assurance did not
indicate whether ASD(NII)/CIO would inform the Office of Management and
Budget and Congress that DoD does not have internal controls over the accuracy
of data on the security of its information technology systems. Additionally, the
Deputy’s response to include a “caution” on DITPR data reports is ambiguous.
Therefore, we request that ASD(NII)/CIO inform the Office of Management and
Budget and Congress that DoD does not have internal controls over the accuracy
of data on the security of its information technology systems. We also request
that ASD(NII)/CIO provide additional comments on the final report identifying
the specific language that will be used in reports generated from DITPR to alert
users that the information in the report is not reliable.

        c. Immediately issue a supplement to the DoD Chief Information
Officer Memorandum, “Department of Defense (DoD) Federal Information
Security Management Act (FISMA) for Fiscal Year 2007 (FY07),” May 21,
2007, and all continuations of the guidance, that contains the information on
testing contingency plans that was included in the supplemental section of
the DoD Chief Information Officer Memorandum, “Department of Defense
(DoD) Federal Information Security Management Act (FISMA) Guidance
for Fiscal Year 2006 (FY 06),” April 4, 2006.

        Management Comments. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance, responding for the DoD CIO, partially
concurred, stating that since the FY 2007 FISMA reporting is complete, a
supplement to that guidance would not be useful. The Deputy for Information
and Identity Assurance agreed, however, to include additional guidance on
contingency planning and testing in the FY 2008 FISMA Guidance, which will be
issued in the first quarter of 2008.

       Audit Response. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance comments were responsive, and no further
comments are required.

       d. Immediately issue a supplement to the DoD Chief Information
Officer Memorandum, “Department of Defense (DoD) Information
Technology (IT) Portfolio Repository (DITPR) and DoD SECRET Internet
Protocol Router Network (SIPRNET) IT Registry Guidance for 2007-2008,”
September 6, 2007, and all continuations of the guidance, that:




                                   16
               (1) Defines an automated control and specifies the types of
data integrity rules DoD Components must implement to ensure they enter
complete, accurate, and authoritative data in the DoD Information
Technology Portfolio Repository.

               (2) Clarifies the difference between a contingency plan and a
continuity of operations plan.

             (3) Removes references to continuity of operations plans in the
“contingency plan” and “contingency plan last exercised” data fields in the
DoD Information Technology Portfolio Repository and the DoD Information
Technology Portfolio Repository Data Dictionary.

         Management Comments. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance, responding for the DoD CIO, concurred in
principle, stating that a software release in October 2007 included enhancements
to DITPR data quality. The Deputy for Information and Identity Assurance stated
that additional changes to implement automated application controls will be
introduced in subsequent releases. The Deputy for Information and Identity
Assurance also stated that the DoD CIO will supplement current DITPR guidance
to clarify differences between contingency planning and continuity of operations
planning.

        Audit Response. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance comments were partially responsive. We
request that ASD(NII)/CIO provide comments on the final report identifying the
specific application controls that will be introduced into DITPR and the dates by
which each control will be implemented.

      e. Implement a training program in contingency planning for DoD
Component officials who develop, test, and approve contingency plans for
information systems.

        Management Comments. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance, responding for the DoD CIO, concurred,
stating that DoD will add guidance on DoD contingency planning to the
information technology information assurance training program managed and
operated by the Defense Information Systems Agency.

       Audit Response. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance comments were responsive, and no further
comments are required.

2. We recommend that the Assistant Secretary of Defense for Network and
Information Integration/DoD Chief Information Officer; the Director,
Business Transformation Agency; and the Chief Information Officers for the
Department of the Army, Department of the Navy, Department of the
Air Force, the U.S. Strategic Command, the U.S. Transportation Command,
the Defense Contract Management Agency, the Defense Information Systems
Agency, the Defense Logistics Agency, the Defense Threat Reduction Agency,
the Missile Defense Agency, and the TRICARE Management Activity:


                                    17
       a. Require that system owners develop contingency plans in
accordance with DoD Instruction 5200.40, “DoD Information Technology
Certification and Accreditation Process (DITSCAP),” December 30, 1997,
and the National Institute of Standards and Technology Special
Publication 800-34, “Contingency Planning Guide for Information
Technology Systems,” June 2002, until DoD issues formal contingency
planning policy.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO,
nonconcurred, stated that DoD is using the interim DoD Information Assurance
Certification and Accreditation Process guidance instead of DoD
Instruction 5200.40. However, the Deputy for Information and Identity
Assurance stated that additional guidance will be provided recommending that
Special Publication 800-34 be used as a guide when preparing contingency plans.

        Audit Response. The Deputy Assistant Secretary of Defense for
Information and Identity Assurance comments were partially responsive.
Although ASD(NII)/CIO formally issued DoD Instruction 8510.01, “DoD
Information Assurance Certification and Accreditation Process (DIACAP),” on
November 28, 2007, the Instruction does not require that DoD Components
implement information assurance policies and procedures issued by the National
Institute of Standards and Technology as required by FISMA. ASD(NII)/CIO
agreed in comments on this report to recommend that DoD Components use the
National Institute of Standards and Technology Special Publication 800-34 as a
guide when preparing system contingency plans, but did not indicate the planned
date for issuing the supplemental guidance. Therefore, we request that
ASD(NII)/CIO provide comments on the final report identifying a completion
date for issuing the guidance requiring DoD Components to use Special
Publication 800-34 when preparing system contingency plans.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army published Department of the Army Pamphlet 25-1-2,
“Information Technology Contingency Planning,” November 16, 2006. The
Acting CIO stated that the Pamphlet implements DoD and Federal policy and was
based on Special Publication 800-34.

     Audit Response. The Army comments were responsive, and no further
comments are required.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred, stating that the Navy CIO will issue
specific guidance on this recommendation after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report identifying a
completion date for issuing guidance requiring that system owners develop plans
in accordance with Special Publication 800-34.

       Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that


                                    18
DoD CIO Memorandum, “Interim Department of Defense (DoD) Information
Assurance Certification and Accreditation Process Guidance,” July 6, 2006,
instructed all DoD personnel to disregard DoD Instruction 5200.40 and comply
with the requirements of draft DoD Instruction 8510.bb, “The DoD Information
Assurance Certification and Accreditation Process (DIACAP).”

        Audit Response. Although the Defense Contract Management Agency
partially concurred, we considered the comments responsive, and no further
comments are required.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that the agency uses the annual DoD FISMA
Guidance, which requires systems to have a contingency plan that is developed
and tested in accordance with DoD Instruction 8500.2.

     Audit Response. The CIO, Defense Information Systems Agency
comments were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency partially concurred, stating that DITSCAP does not
describe how to write or test a contingency plan, nor does its replacement, the
DoD Information Assurance Certification and Accreditation Process. The CIO
stated that while there is no current DoD policy that describes how to develop and
test a contingency plan, Special Publication 800-34 provides a detailed
description for writing a plan, explains how contingency planning fits into the
system development life cycle, and provides a template. The CIO stated that
contingency plans should be developed in accordance to Special
Publication 800-34 until DoD issues a formal contingency planning policy.

        Audit Response. The CIO, Defense Threat Reduction Agency comments
were partially responsive. While the CIO stated that contingency plans should be
developed in accordance with Special Publication 800-34, he did not state
whether the Defense Threat Reduction Agency would issue supplemental
guidance requiring that system owners use Special Publication 800-34. We
request that the Defense Threat Reduction Agency provide comments on the final
report indicating whether the agency plans to issue supplemental guidance
requiring that owners implement Special Publication 800-34 and the completion
date for issuing the guidance.

        Marine Corps Management Comments. Although not required to
respond, the Director, Command, Control, Communications, and Computers
concurred with the recommendation, stating that the Marine Corps is developing
contingency plan templates based on Special Publication 800-34. The Director
stated that, as part of the documents developed during DITSCAP, a system
contingency plan is one of the required documents.

       b. Require that the Designated Approving Authority, the Certifying
Authority, the program manager, and the user representative approve
contingency plans for information systems.




                                    19
        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred
in principle, stating that current guidance requires that the contingency plan be
included in the certification package. The Deputy for Information and Identity
Assurance stated that the Designated Approving Authority reviews the
certification package when determining the system’s authority to operate.

       Audit Response. ASD(NII)/CIO comments were partially responsive.
While we agree that the Designated Approving Authority reviews the certification
package when determining the system’s authority to operate, the Deputy Assistant
Secretary of Defense for Information and Identity Assurance did not comment on
whether he would require the Designated Approving Authority, the Certifying
Authority, the program manager, and the user representative to approve
contingency plans for information systems. Therefore, we request that
ASD(NII)/CIO provide comments on the final report clarifying the response to
Recommendation 2.b.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army will comply with ASD(NII) contingency planning policy
and procedures when promulgated. The Acting CIO stated that, as an interim
measure, the Army will supplement Department of the Army Pamphlet 25-1-2
with best business practices on contingency planning procedures by
November 30, 2007. The best business practices will have the Designated
Approving Authority, the Certifying Authority, the program manager, and the
user representative review, approve, and sign the contingency plan for any system
in the acquisition process. The Certifying Authority, and the Designated
Approving Authority will review and approve contingency plans for the
installation network. The Acting CIO further stated that system owners are
required by July 1, 2008, to review, update, and provide the Office of Information
Assurance and Compliance a signed contingency plan for each system under their
control.

     Audit Response. The Army comments were responsive, and no further
comments are required.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred in principle, stating that the Navy CIO
will issue specific guidance on this subject after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments to the final report identifying a
completion date for issuing supplemental guidance on the approval of
contingency plans for Navy information systems.

       Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that
the approval authority for contingency plans that involve resources used by the
Defense Information Systems Agency should reside with that agency. However,
the Acting Director stated that a robust dialog must exist between the Defense
Information Systems Agency and the Designated Approving Authority
responsible for the system’s certification and accreditation.


                                      20
        Audit Response. The Defense Contract Management Agency comments
were partially responsive. A system whose contingency plan has been developed
with resources from another agency should be jointly approved by the Defense
Contract Management Agency and the Defense Information Systems Agency.
We request that the Defense Contract Management Agency provide comments on
the final report indicating how the agency will ensure that system contingency
plans jointly funded with the Defense Information Systems Agency are approved.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that the agency’s certification and
accreditation process requires that the Designated Approving Authority,
Certifying Authority, and program manager approve the System Security
Authorization Agreement in accordance with DITSCAP. The CIO stated that the
Defense Information System Agency plans to release an implementation manual
in July 2008 that requires the four approving authorities to review the contingency
plan before the System Security Authorization Agreement is approved.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

       Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency partially concurred, stating that current practice at the
Defense Threat Reduction Agency requires that the Designated Approving
Authority, Certifying Authority, program manager, and user representative
approve system contingency plans. The CIO stated that, because it is difficult to
find someone without a vested interest in system performance, the user
representative functions defined in the DoD Information Assurance Certification
Process should be optional.

        Audit Response. The Defense Threat Reduction Agency comments were
nonresponsive. Although the CIO stated that current practice at the Defense
Threat Reduction Agency requires the Designated Approving Authority,
Certifying Authority, program manager, and user representative to approve
system contingency plans, those officials are not approving contingency plans as
required. We request that the Defense Threat Reduction Agency provide
comments on the final report indicating how the agency will ensure that its
information system contingency plans are properly approved.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Designated Approving Authority is
responsible for the final accreditation and acceptance of information assurance
requirements for Marine Corps operational information systems. As part of the
certification and accreditation process, the Certifying Authority or his
representative review the system’s documentation and provides an accreditation
recommendation to the Designated Approving Authority for approval.

       c. Require that system owners conduct recurring tests of contingency
plans under realistic conditions and in accordance with DoD
Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003, and DoD Chief Information Officer Memorandum,


                                    21
“Department of Defense (DoD) Federal Information Security Management
Act (FISMA) Guidance for Fiscal Year 2006 (FY 06),” April 4, 2006, and
document results.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred
in principle, stating that DoD Instruction 8500.2 already requires that system
owners test contingency plans. The Deputy for Information and Identity
Assurance stated that amplifying guidance will be included in the FY 2008
FISMA reporting guidance on contingency plan testing.

        Audit Response. ASD(NII)/CIO comments were responsive, and no
further comments are required.

         Army Comments. The Acting CIO, Department of the Army concurred,
stating that the existing guidance requires that system owners conduct recurring
tests of contingency plans under a variety of conditions. The Acting CIO stated
that the guidance also provides procedures for testing the security controls
identified in DoD Instruction 8500.2.

         Audit Response. The Army comments were partially responsive. While
we recognize that the Army issued guidance requiring that owners conduct
recurring tests of contingency plans under a variety of conditions, the Army CIO
does not have controls in place to ensure that system owners comply with the
policy. We request that the Army provide comments on the final report indicating
how the Army will ensure that system owners are testing contingency plans under
realistic conditions and in accordance with DoD Instruction 8500.2.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred, stating that the Navy CIO will issue
specific guidance on this subject after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for issuing specific guidance on Recommendation 2.c.

       Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency concurred, stating that tests of
the contingency plan for the Agency’s system were conducted annually. The
Acting Director stated that an after-action report is published after each test.

        Audit Response. The Defense Contract Management Agency comments
were nonresponsive. The Defense Contract Management Agency system we
reviewed did not develop or provide evidence of the system’s contingency plan.
The system owner could not conduct a test of a contingency plan that did not
exist. The system owner did provide an after-action report for a test conducted of
the continuity of operations plan for the Systems Management Center Ogden.
However, we determined that the test was not of the system’s contingency plan
but a test of the Center’s continuity of operations plan. Therefore, we request that
the Defense Contract Management Agency provide comments on the final report



                                     22
indicating whether the owner of the system we reviewed has since developed and
then tested the system’s contingency plan.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that an implementation manual scheduled for
release in July 2008 will include procedures to enforce compliance with
contingency plan requirements. The CIO stated that current procedures, taken
from the annual DoD FISMA guidance, are provided to information assurance
and program managers through a DoD online portal.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency nonconcurred, stating that resource constraints prevent
recurring tests of contingency plans under realistic conditions. The CIO stated
that desktop testing is economical and, if done properly, can be thorough enough
to identify security weaknesses.

        Audit Response. The CIO, Defense Threat Reduction Agency comments
were nonresponsive. While we agree that desktop testing is economical and can
identify security weaknesses, desktop testing does not provide the stringency to
thoroughly identify security weaknesses of a contingency plan. For instance,
testing backup and alternate site procedures to determine whether systems and the
information they contain are available during a disruptive or catastrophic event
would be best determined during a functional exercise. We request that Defense
Threat Reduction Agency reconsider its position and allocate the resources
needed to periodically conduct functional tests of its information system
contingency plans.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Marine Corps implemented a quarterly
reporting schedule requiring that Marine Corps information systems be tested in
accordance with DoD Instruction 8500.2. The Director stated that the results are
documented and used to update Marine Corps DITPR data as required by FISMA.

       d. Implement management controls to verify that system owners:

               (1) Develop contingency plans in accordance with DoD
Instruction 5200.40, “DoD Information Technology Certification and
Accreditation Process (DITSCAP),” December 30, 1997, and the National
Institute of Standards and Technology Special Publication 800-34,
“Contingency Planning Guide for Information Technology Systems,” June
2002.

             (2) Conduct recurring tests of system contingency plans in
accordance with DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003, and DoD Chief Information Officer
Memorandum, “Department of Defense (DoD) Federal Information Security



                                   23
Management Act (FISMA) Guidance for Fiscal Year 2006 (FY 06),” April 4,
2006.

               (3) Populate the “contingency plan” and “contingency plan
last tested” data fields in the DoD Information Technology Portfolio
Repository with complete and accurate system information.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, partially
concurred with Recommendation 2.d.1., stating that DoD is using the interim
DoD Information Assurance Certification and Accreditation Process, not DoD
Instruction 5200.40. The Deputy for Information and Identity Assurance stated
that additional guidance will be issued recommending that Special
Publication 800-34 be used as a guide when preparing system contingency plans.

       The Deputy for Information and Identity Assurance concurred with
Recommendations 2.d.2. and 2.d.3., stating that plans are underway to conduct
assessments to verify, among other things, that contingency plans are tested in
accordance with current guidance and that Components maintain auditable
documents that support information reported in DITPR.

       Audit Response. ASD(NII)/CIO comments were partially responsive to
Recommendation 2.d.1. and responsive to Recommendations 2.d.2. and 2.d.3.
We request that ASD(NII)/CIO provide comments on the final report for
Recommendation 2.d.1. that identify a completion date for issuing supplemental
guidance requiring DoD Components to use Special Publication 800-34 when
developing system contingency plans.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army Portfolio Management System is the official and
authoritative source for information on Army information technology systems
entered into DITPR. The Acting CIO stated that system owners enter their
information into the Army Portfolio Management System, which is reviewed
weekly by the Office of Information Assurance and Compliance to verify that
system owners are developing contingency plans as required. The Acting CIO
stated that owners with outdated plans are required to update the Army Portfolio
Management System and provide a Plan of Action and Milestones indicating
when they will become compliant. The Acting CIO stated that, currently, there
are no independent methods to verify the accuracy of the data that owners enter
into the Army Portfolio Management System.

        The Acting CIO stated that the Army will begin requiring system owners
to provide the Office of Information Assurance and Compliance with a copy of
their authenticated contingency plans. The Acting CIO also stated that the Army
plans to implement a best business practice by requiring that owners of
mission-critical systems submit a digitally signed message to the Office of
Information Assurance and Compliance certifying that they have completed
annual testing of the system’s contingency plan.

     Audit Response. The Army comments were responsive, and no further
comments are required.


                                    24
       Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred, stating that the Navy CIO is already
implementing Recommendation 2.d.3.

       Audit Response. The Navy comments were partially responsive. The
Deputy CIO did not respond to Recommendations 2.d.1 or 2.d.2. We request that
the Navy respond to the final report for Recommendations 2.d.1 and 2.d.2.

       Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency concurred, stating that the DoD
CIO instructed DoD personnel to disregard DoD Instruction 5200.40 and comply
with draft DoD Instruction 8510.bb, the DoD Information Assurance Certification
and Accreditation Process.

        Audit Response. The Defense Contract Management Agency comments
were nonresponsive. The Acting Director did not state what actions he would
take to implement Recommendations 2.d.1 through 2.d.3. We request that the
Defense Contract Management Agency provide comments on the final report
specifying actions taken for Recommendations 2.d.1. through 2.d.3.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that, in February 2007, the agency began
requiring directorates to submit monthly reports. The CIO stated that the
directorates are notified monthly when a system is not compliant. The CIO also
stated that the agency has developed an automated tool that provides oversight on
the information.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency partially concurred, stating that contingency plans
should be developed in accordance with the DoD Information Assurance
Certification and Accreditation Process and tested annually.

       Audit Response. The Defense Threat Reduction Agency comments were
nonresponsive. The CIO did not state what actions he would take to implement
Recommendations 2.d.1. through 2.d.3. Therefore, we request that the Defense
Threat Reduction Agency provide additional comments on the final report
specifying actions taken for Recommendations 2.d.1. through 2.d.3.

        e. Impose sanctions on system owners who do not prepare and test
their systems’ contingency plans or enter complete, accurate, and
authoritative information in the DoD Information Technology Portfolio
Repository.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO concurred in
principle, stating that the DoD CIO will work with the DoD Components to
identify ways to deal with system owners who do not prepare and test their



                                   25
system’s contingency plan or enter complete, accurate, and authoritative
information in DITPR.

       Audit Response. ASD(NII)/CIO comments were partially responsive.
The Deputy Assistant Secretary of Defense for Information and Identity
Assurance did not provide a completion date for imposing sanctions on system
owners who do not prepare and test their system’s contingency plans or enter
complete, accurate, and authoritative information in DITPR. We request that
ASD(NII)/CIO provide comments on the final report indicating a completion date
for imposing sanctions needed for system owners that do not comply with
Recommendation 2.e.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army CIO will impose appropriate sanctions on owners who do
not comply with contingency planning policies and procedures. The Acting CIO
stated that the sanction could include withholding funds, withdrawal of the
authority to operate, or denial of network connectivity.

     Audit Response. The Army comments were responsive, and no further
comments are required.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred in principle, stating that the Navy CIO
will issue specific guidance on this subject after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for issuing specific guidance on Recommendation 2.e.

        Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that
agency officials do not believe a mandatory requirement to impose sanctions is
needed in all instances. The Acting Director stated that sanctions should not be
imposed when an owner inadvertently enters incorrect data. The Acting Director
stated that, in such instances, nondisciplinary action is appropriate.

        Audit Response. The Defense Contract Management Agency comments
were partially responsive. The Acting Director did not state what sanctions he
would impose on system owners that routinely enter incorrect data in DITPR.
Additionally, the Acting Director did not specify an alternate course of action for
those system owners who inadvertently enter incorrect data into DITPR. We
request that the Defense Contract Management Agency provide comments on the
final report on planned sanctions for system owners who enter incorrect data into
DITPR.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that the Senior Information Assurance Officer
has the authority to issue a notice to deny a system’s authority to operate that
presents a threat to network security. The CIO stated that this process will be
used to enforce compliance of system contingency plan testing.



                                      26
        Audit Response. The Defense Information Systems Agency comments
were partially responsive. The CIO did not state what sanctions he planned to
impose on system owners who entered incorrect information in DITPR. We
request that the Defense Information Systems Agency provide comments on the
final report specifying planned sanctions for system owners who enter incorrect
data into DITPR.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency concurred in principle, stating that it is necessary to
determine meaningful sanctions that will not compromise operational
effectiveness or mission achievement.

        Audit Response. The Defense Threat Reduction Agency comments were
partially responsive. The CIO did not state what he planned to impose on system
owners who entered incorrect information in DITPR. We request that the
Defense Threat Reduction Agency provide comments on the final report
specifying planned sanctions for system owners who enter incorrect data into
DITPR.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the systems without complete security
documentation, including contingency plans, will not receive accreditation. The
Director stated that those systems will be reported to the Marine Corps CIO for
further action.

        f. Implement automated controls, if applicable, on the Component
system used to populate the DoD Information Technology Portfolio
Repository to prevent blank data fields, duplicate reporting of systems and
system information, and reporting of different information for similar data
fields.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred
in principle, stating that the DoD CIO continues to coordinate with the
Components using automated systems to populate DITPR. The Deputy for
Information and Identify Assurance stated that automated systems ensure that
appropriate automated application controls are in place to ensure a high degree of
DITPR data quality.

        Audit Response. ASD(NII)/CIO comments were partially responsive.
The Deputy Assistant Secretary of Defense for Information and Identity
Assurance did not explain what coordination efforts are taking place with the
Components to implement automated controls on the Component systems used to
populate DITPR. We request that ASD(NII)/CIO provide comments on the final
report on the coordination efforts underway to implement Recommendation 2.f.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army Portfolio Management Solution system, used to populate
DITPR, is operated under strict configuration management. To implement the
recommendation, the Acting CIO stated that Army officials are developing


                                    27
engineering change proposals for the system’s configuration control board. The
Acting CIO stated that the proposed changes include making the “contingency
plan” field mandatory, and requiring it to be populated with an appropriate
response. The Acting CIO stated that blank responses will not be considered
appropriate, and that cross checks will be performed to prevent duplicate
reporting. The Acting CIO stated that the engineering change proposals will be
submitted to the control board by January 10, 2008, with implementation planned
by July 1, 2008.

     Audit Response. The Army comments were responsive, and no further
comments are required.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred, stating that the Navy CIO and the Office
of the Secretary of Defense are studying the feasibility of automated controls.
The Deputy CIO stated that, currently, the Navy CIO is conducting twice-monthly
manual reviews.

     Audit Response. The Navy comments were responsive, and no further
comments are required.

       Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that
the agency does not use an automated system to populate DITPR. The Acting
Director stated that an information assurance professional manually updates
DITPR and the agency’s Deputy CIO reviews those updates.

        Audit Response. The Defense Contract Management Agency comments
were partially responsive. While we acknowledge that the Defense Contract
Management Agency does not use an automated system to populate DITPR, we
need the agency to explain the controls it uses to ensure that system owners enter
correct information into DITPR. Therefore, we request that the Defense Contract
Management Agency provide comments on the final report on Recommend-
ation 2.f.

         Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that the agency is evaluating automated
information assurance management tools for DoD-wide fielding. The CIO stated
that, in the interim, the Office of the CIO is using an automated DITPR
compliance tracking tool to ensure the data quality of FISMA-related fields.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency concurred in principle, stating that the agency does not
use a system to populate DITPR. The CIO stated that the agency plans to
implement automated controls using its certification and accreditation database to
validate information downloaded from DITPR.




                                    28
        Audit Response. The Defense Threat Reduction Agency comments were
partially responsive. We request that the Defense Threat Reduction Agency
provide comments on the final report indicating a completion date for
implementing automated controls. We also request that the Defense Threat
Reduction Agency provide the standard operating procedure for the automated
controls used for its certification and accreditation database.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Marine Corps has implemented a
certification and accreditation support tool that interfaces with and reports to
DITPR.

       g. Prepare a Component-level Plan of Action and Milestones, within
90 days of the issuance of the final report, noting that a significant number of
the Component’s mission-critical systems have security weaknesses related to
contingency planning.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred,
stating that when facts in the DoD OIG audit report support the presence of
weaknesses, the Components should develop and track a Component-level Plan of
Action and Milestones to ensure the completion of remedial actions.

        Audit Response. ASD(NII)/CIO comments were partially responsive. A
Plan of Action and Milestone is required for any system with identified
weaknesses, including weaknesses identified in a DoD OIG report. System
owners should develop a Plan of Action and Milestones immediately after a
weakness is identified, regardless of how it was identified. We request that the
Deputy Assistant Secretary of Defense for Information and Identity Assurance
provide comments on the final report clarifying his response to
Recommendation 2.g.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army will develop and issue an Army-level Plan of Action and
Milestones within 90 days of the issuance of the DoD OIG final report.

       Audit Response. Although the Army comments were responsive, we
request that the Army provide comments on the final report identifying a
completion date for the development of the Army-level Plan of Action and
Milestones.

       Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred in principle, stating that the Navy CIO
will develop a Component-level Plan of Action and Milestones.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for Recommendation 2.g.




                                    29
        Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that
the recommendation is not applicable because there are no existing security
weaknesses related to contingency planning.

        Audit Response. The Defense Contract Management Agency comments
were nonresponsive. We reviewed one Defense Contract Management Agency
information system, and it did not meet the development or testing requirements
for a system contingency plan. We request that the Defense Contract
Management Agency explain in comments on the final report the rationale for
stating that there are no existing security weaknesses related to contingency
planning when this audit report clearly indicates that there were.

       Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that the Office of the CIO will prepare a Plan
of Action and Milestones within 90 days of the issuance of the final report to
ensure that mission critical systems comply with contingency planning
requirements. The CIO also stated that the Office of the CIO will increase
oversight of documentation in its functional processes.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency concurred in principle, stating that the agency
submitted a Component-level Plan of Action and Milestones in conjunction with
its FY 2007 FISMA report submission. The CIO stated that the plan addressed
security weaknesses in contingency planning for its reported systems.

        Audit Response. The Defense Threat Reduction Agency comments were
partially responsive. Although we commend the Defense Threat Reduction
Agency for developing a Component-level Plan of Action and Milestones, the
agency should monitor the issues identified in the plan until they are resolved.
Additionally, the agency should report the results in its FY 2008 response to the
Federal Information Security Management Act.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Marine Corps fielded five two-person system
security engineering teams to oversee operational information assurance
implementation and validation. The Director stated that the teams’ charter
includes support to the information assurance officials for developing and
reporting contingency after-action reporting and validating and remediating any
security weaknesses found.

       h. Require that owners of systems identified in this report as having
security weaknesses in contingency planning develop a Plan of Action and
Milestones within 90 days of the issuance of the final version of this report.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred,


                                   30
stating that, when facts in the DoD OIG audit report support the presence of
weaknesses, the Components should develop and track a Component-level Plan of
Action and Milestones to ensure the completion of remedial actions.

        Audit Response. ASD(NII)/CIO comments were partially responsive. A
Plan of Action and Milestones is required for any system with identified
weaknesses, including weaknesses identified in a DoD OIG report. System
owners should develop a Plan of Action and Milestones immediately after a
weakness is identified, regardless of how it was identified. We request that the
Army provide comments on the final report clarifying its response to
Recommendation 2.h.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the CIO will require system owners identified in this report to develop
a Plan of Action and Milestones and submit it to the Office of Information
Assurance and Compliance.

        Audit Response. Although the Army comments were responsive, we
request that the Army provide comments on the final report with a completion
date for the development of the Army-level Plan of Action and Milestones.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred in principle, stating that the Navy CIO
will issue specific guidance on this subject after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for Recommendation 2.h.

        Defense Contract Management Agency Management Comments. The
Acting Director, Defense Contract Management Agency partially concurred,
stating that the recommendation does not apply to the Agency. The Acting
Director stated that during a review, we identified a weakness with the Agency’s
system. The Acting Director stated that the system now has a compliant
contingency plan in place that will be tested annually.

       Audit Response. The Defense Contract Management Agency comments
were partially responsive. We request that the Defense Contract Management
Agency, in response to the final report, provide a copy of the compliant
contingency plan for the system we reviewed.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that he will require system owners to submit
a Plan of Action and Milestones within 90 days of the issuance of this final report
to ensure that their systems are compliant with contingency planning
requirements.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.




                                      31
        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency concurred in principle, stating that the Agency initiated
action to address security weaknesses with contingency planning using a
system-level Plan of Action and Milestones.

       Audit Response. The Defense Threat Reduction Agency comments were
responsive, and no further comments are required.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Marine Corps will comply with the
requirement in its annual FISMA message.

       i. Review assertions made in the DoD Information Technology
Portfolio Repository Chief Information Officer Memorandum, including
whether the Component implemented automated controls, and certify the
current state of security for the Components’ information systems.
Interview information assurance professionals to verify that the information
in the DoD Information Technology Portfolio Repository Chief Information
Officer Memorandum is accurate.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred
in principle, stating that the DoD CIO considers the information in the
memorandums correct; however, an assessment of the facts stated in the
memorandum will be conducted.

      Audit Response. ASD(NII)/CIO comments were partially responsive.
We request that ASD(NII)/CIO provide comments on the final report indicating a
completion date for reviewing the assertions made in the Component’s DITPR
CIO memorandums.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Army is in the process of implementing and refining the
automated controls used to validate entries in the Army Portfolio Management
Solution system. Army officials stated that the Army Portfolio Management
Solution system interfaces with DITPR.

        Audit Response. The Acting CIO, Department of the Army comments
were nonresponsive. The Acting CIO did not state whether he would review
assertions made in the DITPR CIO Memorandum, including whether the
Component implemented automated controls, and certify the current state of
security for the Components’ information systems. The Acting CIO also did not
state whether he would interview information assurance professionals to verify
that the information in the DITPR CIO Memorandum is accurate. Therefore, we
request that the Army provide comments on the final report for Recommend-
ation 2.i.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred, stating that the Navy CIO and the Office
of the Secretary of Defense are studying the feasibility of automated controls.


                                   32
The Deputy CIO stated that the Navy CIO will issue specific guidance on
interviewing the information assurance professionals after receipt of the final
audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for Recommendation 2.i.

        Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency concurred, stating that agency
officials completed a review of its information in DITPR and verified that it is
accurate.

       Audit Response. The Defense Contract Management Agency comments
were responsive, and no further comments are required.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that he is currently using an automated
DITPR compliance-tracking tool to ensure the data quality of FISMA-related
fields. The CIO stated that the agency plans to expand the tool to assist with
tracking the compliance of non-FISMA DITPR fields.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

        Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency concurred in principle, stating that the recommendation
is current practice at the agency.

       Audit Response. The Defense Threat Reduction Agency comments were
responsive, and no further comments are required.

        Marine Corps Comments. Although not required to respond, the
Director, Command, Control, Communications, and Computers concurred with
the recommendation, stating that the Marine Corps has implemented an
automated security documentation and tracking tool, which included contingency
reporting as a functionality.

       j. Review any system designated as mission critical and Mission
Assurance Category III to identify the rationale for the designation. Require
that owners document the rationale in the System Security Authorization
Agreement.

        ASD(NII)/CIO Comments. The Deputy Assistant Secretary of Defense
for Information and Identity Assurance, responding for the DoD CIO, concurred
in principle, stating that DoD Components should conduct the review and
document results in accordance with current guidance. The Deputy for
Information and Identity Assurance stated that the Components should report
results in their FY 2008 FISMA report submissions.




                                     33
        Audit Response. ASD(NII)/CIO comments were responsive, and no
further comments are required.

        Army Comments. The Acting CIO, Department of the Army concurred,
stating that the Office of Information Assurance and Compliance conducted a
review and identified systems designated as mission critical and MAC III. The
Acting CIO stated that the Office of Information Assurance and Compliance
identified 14 systems with both designations and is contacting system owners and
requiring that they justify in writing the mission criticality and MAC assignment.
The Acting CIO stated that planned completion for this recommendation is
January 10, 2008.

     Audit Response. The Army comments were responsive, and no further
comments are required.

        Navy Comments. The Deputy CIO for Policy and Integration,
responding for the Navy CIO, concurred in principle, stating that the Navy CIO
will issue specific guidance on this subject after receipt of the final audit report.

       Audit Response. The Navy comments were partially responsive. We
request that the Navy provide comments on the final report indicating a
completion date for Recommendation 2.j.

        Defense Contract Management Agency Comments. The Acting
Director, Defense Contract Management Agency partially concurred, stating that
the recommendation does not apply to the Agency because it does not have any
mission-critical systems designated as MAC III.

        Audit Response. Although the Defense Contract Management Agency
partially concurred, we consider comments responsive, and no further comments
are required. While the CIO, Defense Contract Management Agency stated that
the agency does not have any systems designated as mission critical and MAC III,
systems designations are not static. We request that the agency be cognizant of
such designations now, and in the future.

        Defense Information Systems Agency Comments. The CIO, Defense
Information Systems Agency stated that he will review all MAC III systems
designated as mission critical within 90 days of the issuance of the final report.
The CIO stated that the Agency will document the rationale for the designations
and, if necessary, reclassify systems.

       Audit Response. The Defense Information Systems Agency comments
were responsive, and no further comments are required.

       Defense Threat Reduction Agency Comments. The CIO, Defense
Threat Reduction Agency partially concurred, stating that the rationale should be
documented in the System Information Security Plan required by the DoD
Information Assurance Certification and Accreditation Process.

       Audit Response. The CIO, Defense Threat Reduction Agency comments
were partially responsive. The rationale to designate a system as mission-critical


                                      34
    and MAC III should be documented somewhere in the system’s certification and
    accreditation documentation. The CIO did not state, however, whether the
    agency would require that owners of its Agency’s information systems document
    the rationale in certification and accreditation documentation. We request that the
    Defense Threat Reduction Agency provide comments to the final report on
    whether the agency plans to require that owners of its Agency’s information
    systems document the rationale in certification and accreditation documentation.

            Marine Corps Comments. Although not required to respond, the
    Director, Command, Control, Communications, and Computers concurred with
    the recommendation, stating that systems that the public does not have access to
    are designated as MAC III. The Director stated that the Marine Corps will work
    with owners and program managers to complete the review and documentation to
    validate mission-critical, mission-essential, and mission support status.


Management Comments Required
    The U.S. Strategic Command and Business Transformation Agency did not
    comment on the draft report issued on October 2, 2007; therefore, we request that
    they provide comments on the final report. Although the Air Force and the
    U.S. Transportation Command commented on the draft report, the comments did
    not indicate concurrence with the recommendation, proposed actions, or
    completion dates. The Defense Logistics Agency, Missile Defense Agency, and
    TRICARE Management Activity concurred with the recommendations; however,
    those agencies did not indicate proposed actions or completion dates.

    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements in
    the following table.


                               Management Comments Required
                                                    Statement        Statement    Statement
                                                        of               of           of
                                                  Concurrence or     Proposed    Completion
     Recommendation           Organization        Nonconcurrence      Action        Date
     2.a. through 2.j.         Air Force              needed          needed       needed

                             U.S. Strategic           needed          needed       needed
                              Command

                           U.S. Transportation        needed          needed       needed
                               Command

                                Business              needed          needed       needed
                         Transformation Agency




                                        35
                      Management Comments Required
                                        Statement      Statement    Statement
                                            of             of           of
                                      Concurrence or   Proposed    Completion
Recommendation      Organization      Nonconcurrence    Action        Date
                  Defense Logistics      received       needed       needed
                      Agency

                   Missile Defense       received       needed       needed
                      Agency

                     TRICARE             received       needed       needed
                 Management Agency




                              36
Appendix A. Scope and Methodology
   We conducted this performance audit from January 2007 through October 2007 in
   accordance with generally accepted government auditing standards. These
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   Audit Universe and Sample. We used the unclassified DITPR as our source of
   information to determine the universe of DoD mission-critical systems requiring
   information assurance certification and accreditation. We did not review systems
   reported in the classified DITPR. We queried DITPR to identify systems that met
   two criteria: each system had to require certification and accreditation, and be
   mission-critical. Systems requiring certification and accreditation criteria are
   required to have contingency plans that are tested on a regular basis. We
   reviewed only mission-critical systems because the loss of the system information
   would cause stoppage of warfighter operations or undermine mission support of
   warfighter operations.

   We queried the unclassified DITPR on January 24, 2007, the date of our audit
   announcement. Our query resulted in a universe of 436 mission-critical systems
   requiring information assurance certification and accreditation. The 436 systems
   included 110 Army, 97 Navy, 85 Air Force, 50 Marine Corps, and 94 ODO. The
   DoD Inspector General (IG) Quantitative Methods Directorate developed a
   statistical sample plan for the 436 systems using a stratified sample design, which
   resulted in an audit sample of 240 systems. The audit sample consisted of
   60 Army, 54 Navy, 50 Air Force, 26 Marine Corps and 50 ODO systems. See
   Appendix B for the 240 systems sampled.

   We reviewed two contingency planning data fields in DITPR for the
   240 information systems. The first was the “contingency plan” data field in
   which system owners report whether they developed a contingency plan for their
   system. We asked the Components that had reported having developed a
   contingency plan to provide the approved, signed copy of the contingency plan.
   The second data element was the data field in which system owners report the
   date they last tested their contingency plan. We requested that system owners
   provide after-action or lessons-learned reports or any other documentation to
   demonstrate that they tested the system’s contingency plan on the date they
   reported in DITPR. We provided the Components with the information we
   extracted from DITPR on January 24, 2007.

   We compared contingency plans, contingency plan testing documents, and CIO
   DITPR Certification Memorandums with the requirements identified in DoD
   Directive 5144.1, DoD Instruction 8500.2, DoD Instruction 5200.40, DoD
   Manual 8510.1-M, FYs 2006 FISMA Guidance, and FY 2006 DITPR Guidance.
   We interviewed information assurance officials from the Army, Navy, and Air
   Force CIO offices.



                                       37
Statistical Sampling and Use of Technical Assistance. The Quantitative
Methods Directorate developed the statistical sample design for the audit universe
of 436 systems. We used two measures associated with the existence and testing
of system contingency plans. The two measures required independent projections
and were subject to Bonferroni corrections. We used a 95-percent individual
confidence level to calculate the statistical projections, which resulted in an
effective 90-percent overall confidence level due to Bonferroni adjustment. The
projections apply to the universe of 436 information systems.

Tables A-1 and A-2 identify projections for the individual Components and
overall for DoD. Our projections in Table A-1 show that we are 90 percent
confident that the owners of between 244 and 283 DoD mission-critical
information systems did not prepare a contingency plan for their system. The
unbiased point estimate of 264 systems is the most likely number of systems with
no contingency plan.

                   Table A-1. Systems Lacking Contingency Plans

       Components                 Lower Bound             Point Estimate          Upper Bound
 Army                                   46                      57                      67
 Navy                                   59                      68                      77
 Air Force                              61                      68                      75
 Marine Corps                           45                      50                       *
 ODO                                     12                      21                      29
 Total DoD**                            244                     264                     283
 * Due to all sample systems with problems, projections are calculated using Exact Binomial
 distribution with one-tail and an effectively reduced confidence level for multiple estimates.
 ** Total DoD projections are computed independently and do not reflect the totals of the
 three columns.


Our projections in Table A-2 show that we are 90 percent confident that owners
of between 342 and 373 mission-critical information systems did not test or could
not provide evidence of testing their systems’ contingency plans. The unbiased
point estimate of 358 systems is the most likely number of systems untested
contingency plans.




                                           38
                   Table A-2. Contingency Plans Lacking Testing
      Component                 Lower Bound              Point Estimate          Upper Bound
 Army                                 90                       97                      104
 Navy                                 80                       86                       93
 Air Force                            79                       85                        *
 Marine Corps                         45                       50                       *
 ODO                                   30                       39                      49
 Total DoD**                          342                      358                     373
 * Due to all sample systems with problems, projections are calculated using Exact Binomial
 distribution with one-tail and an effectively reduced confidence level for multiple estimates.
 ** Total DoD projections are computed independently and do not reflect the totals of the
 three columns.


Our projections in Table A-3 show that we are 90 percent confident of the
following.

        •    Owners of between 23 and 50 DoD mission-critical information
             systems did not correctly report in DITPR whether they had developed
             contingency plans for their systems. The unbiased point estimate of
             37 systems is the most likely number of systems with incorrect
             information in the “contingency plan” data field in DITPR.

        •    Owners of between 398 and 422 DoD mission-critical information
             systems did not correctly report in DITPR whether they had tested
             their systems’ contingency plans. The unbiased point estimate of
             410 systems is the most likely number of systems with incorrect
             information in the “contingency plan last tested” data field in DITPR.

            Table A-3. Systems With Inaccurate Information in DITPR
       Component                 Lower Bound             Point Estimate          Upper Bound
 Reporting of
 Contingency Plan Not                   23                      37                      50
 Accurate
 Reporting of
 Contingency Plan                      398                     410                     422
 Testing Not Accurate


Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit. We used the DITPR database for determining the audit
universe and sample. DITPR, however, does not process data. The DoD
Components populate DITPR through data entry.


                                             39
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Protecting the Federal Government’s
    Information-Sharing Mechanisms and the Nation’s Critical Infrastructures
    high-risk areas.


Prior Coverage
    During the last 5 years, DoD IG issued four reports discussing DITPR.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2007-099, “DoD Privacy Program and Privacy Impact
    Assessments,” June 13, 2007

    DoD IG Report No. D-2006-042, “Security Status for Systems reported in DoD
    Information Technology Databases,” December 30, 2005

    DoD IG Report No. D-2005-029, “Management of Information Technology
    Resources Within DoD,” January 27, 2005

    DoD IG Report No. D-2003-008, “Implementation of the Government
    Information Security Reform by the Defense Finance and Accounting Service for
    the Defense Integrated Financial Systems,” October 7, 2002




                                        40
Appendix B. DoD Mission-Critical Systems
            Sampled
       We reviewed contingency planning information for the following
       240 mission-critical systems as of January 24, 2007. We listed the systems first
       by Component, then by DITPR identification number. System owners continue to
       leave DITPR data fields blank or select “n/a” when reporting system information.
       Based on audit analysis, the “Contingency Plan Met Requirements” column
       indicates whether the system contingency plan met requirements listed in
       Appendix A.

                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

             Army
         1                                    81                yes                 no            Nov. 6, 2006*
         2                                    85                yes                 no            May 4, 2006*
         3                                    86                yes                yes           March 30, 2006
         4                                   566                yes                yes            May 6, 2006*
         5                                   568                yes                 no            May 16, 2006*
         6                                   605                yes                yes            May 6, 2006*
         7                                  1205                yes                 no             Jan. 8, 2006*
         8                                  1207                yes                yes             Jan. 8, 2006*
         9                                  1217                yes                yes             Jan. 8, 2006*
       10                                   1292                yes                 no           March 30, 2006*
       11                                   2540                yes                yes            June 6, 2006*
       12                                   2561                yes                yes           Sept. 15, 2006*
       13                                   2638                yes                yes            May 5, 2006*
       14                                   2641                yes                 no           March 14, 2006*
       15                                   2652                yes                 no            June 16, 2006*
       16                                   2660                no                  no            May 19, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   41
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

       17                                   2668                yes                yes            May 6, 2006*
       18                                   2672                yes                yes            May 31, 2006*
       19                                   2675                yes                 no            June 14, 2006*
       20                                   2707                no                 yes           March 22, 2006*
       21                                   2727                yes                 no            Feb. 28, 2006*
       22                                   2894                yes                 no            Aug. 8, 2006*
       23                                   2933                yes                yes           April 24, 2006*
       24                                   2960                yes                yes            Feb. 15, 2006*
       25                                   2984                yes                 no            June 26, 2006*
       26                                   2992                yes                yes            May 12, 2006*
       27                                   2993                yes                yes            May 12, 2006*
       28                                   3032                yes                yes           April 20, 2006*
       29                                   3037               blank               yes            July 19, 2006*
       30                                   3052                no                 yes            Jan. 10, 2006*
       31                                   3325               blank               yes           April 27, 2006*
       32                                   3340                yes                 no           April 12, 2006*
       33                                   3378                yes                 no            Jan. 30, 2006*
       34                                   3379                no                 yes            Oct. 27, 2006*
       35                                   3381                yes                yes           March 30, 2006
       36                                   3459                yes                 no            June 30, 2006*
       37                                   3565                yes                 no            Feb. 28, 2006*
       38                                   3612                yes                 no            May 4, 2006*
       39                                   3668               blank                no                blank*
       40                                   3674                yes                yes            July 14, 2006*
       41                                   3712                yes                 no            May 1, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   42
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

       42                                   3714               blank                no                blank*
       43                                   3719               blank               yes           Sept. 18, 2006*
       44                                   3808                yes                 no            May 1, 2006*
       45                                   3813                yes                yes            Aug. 25, 2006*
       46                                   3872                yes                yes            Oct. 19, 2006*
       47                                   3896                yes                 no           March 29, 2006*
       48                                   3897                yes                 no            Feb. 27, 2006*
       49                                   3905                yes                yes            Aug. 16, 2006*
       50                                   3918                yes                 no            Aug. 15, 2006*
       51                                   3983                yes                yes            Aug. 25, 2006*
       52                                   3990                no                  no            Oct. 10, 2006*
       53                                   4019                yes                yes            Dec. 1, 2006*
       54                                   4034                yes                 no            July 31, 2006*
       55                                   4078                yes                 no           March 14, 2006*
       56                                   4079                yes                 no           March 14, 2006*
       57                                   4096                yes                 no           March 14, 2006*
       58                                   5188                yes                 no            July 31, 2006*
       59                                   5910                yes                yes           March 12, 2006*
       60                                   8470                yes                 no            May 15, 2006*
             Navy
       61                                    118                yes                yes            May 15, 2006*
       62                                    320                yes                 no            May 18, 2006*
       63                                   4370                yes                 no            June 29, 2006*
       64                                   4393                yes                yes            Aug. 11, 2006*
       65                                   4397                yes                yes             Jan. 23, 2006
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   43
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

       66                                   4430                yes                 no            Aug. 26, 2006*
       67                                   4432                yes                 no            Aug. 22, 2006*
       68                                   4433                yes                yes            June 2, 2006*
       69                                   4449                yes                 no            Aug. 23, 2006*
       70                                   4514                yes                 no           March 14, 2006*
       71                                   4516                yes                 no            Aug. 24, 2006*
       72                                   4528                yes                yes            May 5, 2006*
       73                                   4559                yes                yes            Oct. 10, 2006*
       74                                   4567                yes                 no            Aug. 1, 2006*
       75                                   4652                no                  no            Jan. 17, 2007*
       76                                   4654                no                  no            Jan. 17, 2007*
       77                                   4736                yes                 no           March 16, 2006*
       78                                   4764                yes                 no            Feb. 28, 2007*
       79                                   4766                yes                 no            Jan. 17, 2007*
       80                                   4800                yes                 no            July 19, 2006*
       81                                   4807                yes                 no            Aug. 23, 2006*
       82                                   4812                yes                yes           March 24, 2006*
       83                                   4813                yes                yes            May 19, 2006*
       84                                   4821                yes                yes           March 27, 2006*
       85                                   4827                yes                yes            May 18, 2006*
       86                                   4830                yes                yes            Oct. 24, 2002*
       87                                   4836                yes                 no            Dec. 5, 2006*
       88                                   4871                yes                 no            Aug. 22, 2006*
       89                                   4927                yes                 no            June 29, 2006*
       90                                   4932                n/a                 no            June 27, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   44
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

       91                                   4934                yes                 no            Dec. 18, 2006*
       92                                   4947                yes                yes             July 31, 2006
       93                                   4953                yes                 no           March 27, 2006*
       94                                   4986                yes                 no            Nov. 1, 2005*
       95                                   4989                no                  no            Jan. 17, 2007*
       96                                   5002                yes                 no            Sept. 15, 2005*
       97                                   5011                yes                yes            Feb. 13, 2006*
       98                                   5016                yes                 no            July 31, 2006*
       99                                   5021                yes                 no            Feb. 23, 2006*
      100                                   5035                yes                 no           March 5, 2006*
      101                                   5038                yes                 no            Aug. 22, 2006*
      102                                   5042                yes                yes            May 10, 2006*
      103                                   5050                yes                 no           April 15, 2006*
      104                                   5117                yes                 no            May 25, 2006*
      105                                   5119                yes                 no            Oct. 22, 2006*
      106                                   5125                yes                 no           April 15, 2006*
      107                                   5166                yes                yes             Oct. 8, 2007*
      108                                   6872                yes                 no             July 1, 2006*
      109                                   6971                yes                 no           Sept. 15, 2006*
      110                                   6978                yes                 no            July 23, 2006*
      111                                   8069                yes                 no            Feb. 28, 2006*
      112                                   8163                yes                yes            Aug. 24, 2006*
      113                                   8577               blank                no           Sept. 14, 2006*
      114                                   8849               blank                no            Jan. 27, 2006*

* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   45
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

             Marine Corps
      115                                   4416                yes                 no            July 27, 2006*
      116                                   4418                yes                 no            July 27, 2006*
      117                                   4420                yes                 no            July 27, 2006*
      118                                   4424                yes                 no            July 27, 2006*
      119                                   4440                yes                 no            July 27, 2006*
      120                                   4517                yes                 no            July 27, 2006*
      121                                   4538                yes                 no            July 27, 2006*
      122                                   4718                yes                 no            July 27, 2006*
      123                                   4720                yes                 no            July 27, 2006*
      124                                   4732                yes                 no            July 27, 2006*
      125                                   4740                yes                 no            July 27, 2006*
      126                                   4784                yes                 no            July 27, 2006*
      127                                   4798                yes                 no            July 27, 2006*
      128                                   4864                yes                 no            July 27, 2006*
      129                                   4941                yes                 no            July 27, 2006*
      130                                   4970                yes                 no            July 27, 2006*
      131                                   4992                yes                 no            July 27, 2006*
      132                                   5020                yes                 no             July 1, 2006*
      133                                   5028                yes                 no            July 27, 2006*
      134                                   5061                yes                 no            July 27, 2006*
      135                                   5081                yes                 no            July 27, 2006*
      136                                   5095                yes                 no            July 27, 2006*
      137                                   5096                yes                 no            July 27, 2006*
      138                                   5100                yes                 no            July 27, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   46
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

      139                                   5108                yes                 no            July 27, 2006*
      140                                   5143                yes                 no            July 27, 2006*
             Air Force
      141                                    451                yes                yes            June 13, 2006*
      142                                    879                yes                yes            Aug. 27, 2006*
      143                                    939                yes                 no            June 3, 2006*
      144                                    942                yes                 no            June 15, 2006*
      145                                   1049                yes                yes            Aug. 23, 2006*
      146                                   1298                yes                yes            Jan. 30, 2006*
      147                                   1460                yes                 no            June 30, 2006*
      148                                   1711                yes                 no            July 14, 2006*
      149                                   1725                yes                 no            Aug. 6, 2006*
      150                                   1848                yes                yes            April 1, 2005*
      151                                   1876                yes                 no           March 7, 2006*
      152                                   1948                yes                 no            July 15, 2002*
      153                                   2004                yes                 no            May 12, 2006*
      154                                   2049                yes                 no            June 1, 2004*
      155                                   2077                yes                 no            Aug. 11, 2006*
      156                                   2143                yes                 no                blank*
      157                                   2145                yes                 no                blank*
      158                                   2173                yes                 no            Jan. 18, 2006*
      159                                   2223                yes                 no            Aug. 3, 2006*
      160                                   2226                yes                 no           March 3, 2005*
      161                                   2229                yes                yes            Nov. 20, 2006*
      162                                   2395                yes                 no            Oct. 25, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   47
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

      163                                   2448                yes                 no             July 1, 2006*
      164                                   2454                yes                 no            Oct. 30, 2006*
      165                                   5851                yes                 no            Oct. 20, 2006*
      166                                   5885                yes                 no            Aug. 15, 2004*
      167                                   6666                yes                 no            June 15, 2006*
      168                                   7164                yes                 no            July 14, 2006*
      169                                   7319                yes                 no           April 26, 2006*
      170                                   7728                yes                 no            Oct. 28, 2005*
      171                                   7743                yes                 no            June 21, 2006*
      172                                   7778                yes                 no            Oct. 18, 2006*
      173                                   7796                yes                yes           March 31, 2006*
      174                                   7797                yes                 no            Jan. 12, 2006*
      175                                   7798                yes                 no            Nov. 16, 2005*
      176                                   7799                yes                 no            Nov. 22, 2005*
      177                                   7801                yes                yes            Jan. 12, 2006*
      178                                   7802                yes                 no            Jan. 19, 2006*
      179                                   7803                yes                 no            Jan. 23, 2006*
      180                                   7804                yes                 no            Jan. 23, 2006*
      181                                   7806                yes                 no            Jan. 12, 2006*
      182                                   7820                yes                 no            Feb. 10, 2006*
      183                                   7854                yes                 no            Nov. 11, 2006*
      184                                   7864                yes                 no            Dec. 19, 2005*
      185                                   8265                yes                 no            July 18, 2006*
      186                                   8321                yes                yes            July 14, 2006*
      187                                   8351                yes                 no            Jan. 12, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   48
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

      188                                   8367                yes                 no            Jan. 23, 2006*
      189                                   8751                yes                 no            Aug. 16, 2006*
      190                                   8752                yes                yes           April 14, 2006*
             U.S. Transportation Command
      191                                    348                yes                yes             Jan. 10, 2007
      192                                    349                yes                 no           March 2, 2006*
      193                                    354                yes                yes            May 18, 2006*
      194                                    359                yes                yes             Nov. 1, 2006
      195                                    369                yes                yes            Nov. 7, 2006*
      196                                    370                yes                yes            Jan. 15, 2006*
      197                                    374                yes                yes            June 15, 2006
      198                                    376                yes                yes             July 7, 2006
      199                                    487                yes                yes             July 7, 2006
      200                                   1352                yes                yes            July 19, 2006*
      201                                   3093                yes                yes            Feb. 6, 2006*
      202                                   3112                yes                yes            April 10, 2006
      203                                   4227                yes                yes            June 19, 2006*
      204                                   4238                yes                yes            Oct. 23, 2006*
             U.S. Strategic Command
      205                                   3120                yes                yes            Dec. 8, 2006*
             ASD(NII)/CIO

      206                                   3264                yes                yes           Sept. 28, 2005*
             Business Transportation Agency
      207                                   6501               blank               yes            Oct. 23, 2006*

* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   49
                                                          Component                               Component
                                                           Reported                              Reported Date
                                          DITPR           Contingency        Contingency          Contingency
Sampled                                Identification        Plan              Plan Met            Plan Last
 System      Component                   Number            Developed         Requirements           Tested

             Defense Contract Management Agency
      208                                    423                yes                 no            Feb. 3, 2006*
              Defense Information Systems Agency
      209                                   3106                yes                 no            May 27, 2005*
      210                                   3150                yes                yes            May 17, 2006*
      211                                   3189                yes                 no            April 8, 2006*
      212                                   3194                yes                yes            May 25, 2006*
      213                                   3196                yes                yes            Nov. 12, 2006*
      214                                   3200                yes                yes            May 21, 2006*
      215                                   3205                yes                 no             Aug. 6, 2006
      216                                   3210                yes                yes           March 3, 2006*
      217                                   3212                yes                yes            June 14, 2006*
      218                                   3220                yes                yes            May 19, 2006*
      219                                   3224                yes                yes            Aug. 1, 2005*
      220                                   3236                yes                 no           April 18, 2006*
      221                                   3245                yes                yes            July 10, 2006*
      222                                   3249                yes                yes           Sept. 26, 2006*
      223                                   3253                yes                 no           April 18, 2006*
      224                                   3259                yes                yes            June 17, 2006*
      225                                   7496                yes                yes            May 19, 2006*
      226                                   7895                yes                yes            July 10, 2006*
      227                                   7902               blank                no             Aug. 6, 2006
      228                                   7903                yes                yes           March 11, 2006*
      229                                   8546               blank                no             July 2, 2005*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                   50
                                                           Component                              Component
                                                            Reported                             Reported Date
                                           DITPR           Contingency       Contingency          Contingency
Sampled                                 Identification        Plan             Plan Met            Plan Last
 System      Component                    Number            Developed        Requirements           Tested

             Defense Logistics Agency
      230                                    280                yes                yes            July 28, 2003*
      231                                    281                yes                yes            Feb. 28, 2004*
      232                                    286                yes                yes             Dec. 2, 2005
      233                                    288                yes                yes            Aug. 17, 2006
      234                                    8563               yes                yes            Aug. 16, 2006*
             Defense Threat Reduction Agency
      235                                    3183               yes                yes            Oct. 21, 2005*
      236                                    4260               yes                yes            Oct. 21, 2005*
      237                                    7550                no                 no                blank*
             Missile Defense Agency
      238                                    4295               yes                 no            Aug. 23, 2006*
             TRICARE Management Agency
      239                                    138                yes                yes            April 13, 2006*
      240                                    164                yes                yes            Oct. 31, 2006*
* Based on the analysis of the evidence system owner provided, the owner did not report the correct date in DITPR
of the last test of the system’s contingency plan.




                                                    51
Appendix C. Management Comments on the
            Finding, Unsolicited Comments on
            the Finding and Recommendations,
            and Audit Response
   The Air Force, U.S. Transportation Command, and the Defense Contract
   Management Agency provided comments on the finding section of the report.
   Although not required to comment, the Marine Corps also commented on the
   finding and the Defense Threat Reduction Agency commented on
   Recommendation 1.

   Management Comments on the Finding, and Audit Response
   Air Force Comments. The CIO, Air Force stated that on April 17, 2007, he
   released a detailed Instruction on contingency plan development, which was
   included in the Air Force FY 2007 FISMA Reporting Guidance. The
   Air Force CIO stated that the Air Force FY 2007 FISMA Reporting Guidance
   required system owners to use Special Publication 800-34 to develop and
   maintain a viable contingency planning program. The Air Force CIO stated that
   the Air Force plans to incorporate contingency planning procedures in Special
   Publication 800-34 into Air Force policy. The CIO also stated that the Air Force
   will audit contingency plan development and testing plan to ensure gaps are
   identified, training is relevant, and exercises are conducted and documented to
   improve plan effectiveness.

   Audit Response. We commend the Air Force for taking corrective action on
   some of the issues identified in this report.

   U.S. Transportation Command Comments. The Director, Program Analysis
   and Financial Management, commenting for the U.S. Transportation Command
   CIO, stated that the one system contingency plan we determined did not meet
   requirements was updated and subsequently tested in July 2007. The Director
   also stated that six of the eight systems we determined did not have correct
   contingency plan test dates in DITPR were tested in accordance with DoD policy;
   however, the DITPR Guidance allows owners 30 days to update their system
   information in DITPR. The Director stated that he attributed the incorrect dates
   in DITPR to the latency requirement for reporting information in DITPR.

   The Director further said that the U.S. Transportation Command developed and
   standardized templates, based on DoD Instruction 8500.2, to assist system
   managers in developing contingency plans and documenting plan results. The
   Director stated that U.S. Transportation Command requested and receives Plans
   of Actions and Milestones from system managers, continuously monitors the
   plans, and assists managers when they submit inadequate documentation.

   Audit Response. We commend the U.S. Transportation Command for taking
   corrective action on some of the issues identified in this report.


                                      52
Defense Contract Management Agency Comments. The Acting Director,
Defense Contract Management Agency stated that owners of Defense Contract
Management Agency systems have contingency plans. The Acting Director
stated that the Defense Information Systems Agency hosts and operates the
system we reviewed and prepared a contingency plan for the system. The Acting
Director stated that although the owner of the system reported an incorrect date in
DITPR in January 2007, the agency entered the correct date on May 15, 2007, and
promptly notified our office.

Audit Response. We commend the Defense Contract Management Agency for
taking corrective action on some of the issues identified in this report.

Unsolicited Comments on the Finding, and Audit Response
Marine Corps Comments. The Director, Marine Corps Command, Control,
Communications and Computers stated that, to meet information assurance
reporting requirements, the Marine Corps identified three enclaves. The enclaves
include garrison and tactical information systems and networks located in or on
Marine Corps bases, posts, camps, stations, and major subordinate commands.
The Director stated that all networks, networked systems, and other information
systems are certified and accredited to operate in one of the three enclaves and
documented in the approved enclave System Security Authorization Agreement.

The Director stated that the Marine Corps agreed with the findings that system
owners for 100 percent of Marine Corps information systems did not show that
contingency plans were developed and tested. The Director stated that the
Marine Corps will demonstrate system accountability in a Plan of Action and
Milestones. The Director further stated that although the initial submission of test
and after action reports did not explicitly identify the systems under review,
additional documents were provided indicating the location of each system and to
which enclave the system belonged.

Audit Response. Marine Corps system owners provided one document during
their initial submission of documents for all 26 systems sampled—an appendix
from the Marine Corps Logistics Command Security System Authorization
Agreement—as evidence that they had prepared contingency plans for the
26 systems. Marine Corps system owners also provided a memorandum stating
that the appendix covered contingency planning procedures for the 26 systems
under review. The five-page appendix, however, did not mention the 26 systems
or provide contingency planning procedures for the systems.

Prior to a briefing we conducted with Marine Corps officials on the preliminary
results of this audit, Marine Corps officials provided a spreadsheet that identified
the locations of the 26 Marine Corps information systems we reviewed. The
spreadsheet, however, did not identify the enclave to which the 26 systems
belonged. Additionally, the spreadsheet indicated that only 4 of the 26 systems we
reviewed were covered by the Marine Corps Logistics Command Security System
Authorization Agreement, the only document they provided us initially. We did
not consider the spreadsheet sufficient evidence that owners of the 26 systems we
reviewed developed and tested the systems’ contingency plans. The system


                                     53
boundaries and enclaves to which the system belongs should be recorded in the
system’s certification and accreditation documents, not in a spreadsheet generated
specifically for the audit team.

Unsolicited Comments on the Recommendations
Defense Threat Reduction Agency Comments. Although not required to
respond, the CIO, Defense Threat Reduction Agency commented on
Recommendation 1. The CIO stated that the lack of detailed DoD guidance on
contingency planning impedes the Agency’s ability to develop, test, and approve
contingency plans for information systems. The CIO stated that the Agency
would benefit from a supplement on testing contingency plans and improving its
DITPR data quality and integrity. The CIO also stated that clarification of the
definitions for contingency plan and continuity of operation plans would
eliminate inappropriate substitution of one term for the other. Lastly, the CIO
stated that implementation of a training program in contingency planning would
benefit the Agency by developing individuals with the skills to complete
contingency plans.




                                    54
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Business Transformation Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Department of the Army

Department of the Navy
Auditor General, Department of the Navy
Chief Information Officer, Department of Navy
  Deputy Chief Information Officer, U.S. Marine Corps
Naval Inspector General
Assistant Secretary of the Navy (Manpower and Reserve Affairs)

Department of the Air Force
Chief Information Officer, Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          55
Combatant Commands
Commander, U.S. Strategic Command
Commander, U.S. Transportation Command
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Threat Reduction Agency
Director, Missile Defense Agency
Director, TRICARE Management Activity
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Finance and Accounting Agency
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Department of Defense Inspector General
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, Armed Forces Information Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, TRICARE Management Activity
Chief Information Officer, Washington Headquarters Service




                                          56
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Technology and Innovation, Committee on Science
  and Technology




                                        57
Assistant Secretary of Defense for Networks and
Information Integration Comments




                       59
60
61
62
63
64
65
66
67
Department of the Army Comments




                    68
69
70
71
72
73
74
75
76
Department of the Navy Comments




                    77
78
79
Department of the Air Force Comments




                     80
U.S Transportation Command Comments




                   81
82
Defense Contract Management Agency
Comments




                    83
84
85
86
Defense Information Systems Agency Comments




                     87
88
89
90
Defense Logistics Agency Comments
                                     Final Report
                                      Reference




                                    Attachment 1
                                    Omitted




                     91
Defense Threat Reduction Agency Comments




                    92
93
94
95
96
97
Missile Defense Agency Comments




                     98
TRICARE Management Activity Comments




                   99
100
101
U.S. Marine Corps Comments




                    102
103
104
105
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Kimberley A. Caprio
Karen J. Goff
Barry Gay
Dawn M. Russell
Brenda M. Steib
Dharam V. Jain
Allison E. Tarmann
